<html>
<title> - [H.A.S.C. No. 112-124]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2013 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 112-124]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

         FISCAL YEAR 2013 DOD ROTORCRAFT MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 27, 2012



                  U.S. GOVERNMENT PRINTING OFFICE
73-796                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13




              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    NIKI TSONGAS, Massachusetts
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
JON RUNYAN, New Jersey               MARTIN HEINRICH, New Mexico
MARTHA ROBY, Alabama                 BILL OWENS, New York
WALTER B. JONES, North Carolina      JOHN R. GARAMENDI, California
W. TODD AKIN, Missouri               MARK S. CRITZ, Pennsylvania
JOE WILSON, South Carolina           KATHLEEN C. HOCHUL, New York
MICHAEL TURNER, Ohio                 JACKIE SPEIER, California
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, March 27, 2012, Fiscal Year 2013 DOD Rotorcraft 
  Modernization Programs.........................................     1

Appendix:

Tuesday, March 27, 2012..........................................    25
                              ----------                              

                        TUESDAY, MARCH 27, 2012
         FISCAL YEAR 2013 DOD ROTORCRAFT MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2

                               WITNESSES

Crosby, MG William T., USA, PEO Aviation Headquarters, U.S. Army.     5
Kane, Maj Gen Robert C., USAF, Director, Global Reach Programs, 
  U.S. Air Force; and Maj Gen Noel T. Jones, USAF, Director, 
  Operational Capability Requirements, U.S. Air Force............     7
Robling, LtGen Terry G., USMC, Deputy Commandant for Aviation, 
  U.S. Marine Corps; RADM William F. Moran, USN, Director, Air 
  Warfare Division, U.S. Navy; and Richard Gilpin, Deputy 
  Assistant Secretary of the Navy Air Programs Office............     3

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    29
    Crosby, MG William T.........................................    46
    Kane, Maj Gen Robert C., joint with Maj Gen Noel T. Jones....    62
    Reyes, Hon. Silvestre........................................    31
    Robling, LtGen Terry G., joint with RADM William F. Moran and 
      Richard Gilpin.............................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................    79

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................    83
    Mr. Cooper...................................................    94
    Mr. LoBiondo.................................................    92
    Mrs. Roby....................................................    95
    Mr. Rooney...................................................    94
    Ms. Tsongas..................................................    94
    Mr. Turner...................................................    93
    Mr. Wilson...................................................    90
         FISCAL YEAR 2013 DOD ROTORCRAFT MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Tuesday, March 27, 2012.
    The subcommittee met, pursuant to call, at 3:02 p.m. in 
room 2118, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. The subcommittee will come to order. Good 
afternoon. Thank you all for joining us. I would like to 
welcome our witnesses, Lieutenant General Terry Robling, Deputy 
Commandant for Aviation U.S. Marine Corps; Rear Admiral William 
Moran, Director, Air Warfare Division, U.S. Navy; Mr. Richard 
Gilpin, Deputy Assistant Secretary of the Navy, Air Programs 
Office; Major General William Crosby, Program Executive Officer 
Aviation, U.S. Army; Major General Noel Jones, Director, 
Operational Capability Requirements, U.S. Air Force; and Major 
General Robert Kane, Director, Global Reach Programs, U.S. Air 
Force.
    Thank you all for being here and for your service to our 
Nation.
    The use of helicopters has dramatically changed warfare 
doctrine from the time of their introduction during the Korean 
War, followed by development prior to Vietnam, use during 
Vietnam as a mobility platform and current rotorcraft aviation 
operations. The helicopter is now a platform of maneuver used 
for multimissions, to include resupply, medical evaluation, 
reconnaissance, air assault, and attack operations.
    The U.S. Armed Forces currently have approximately 7,000 
helicopters. Operations in Iraq and Afghanistan have put an 
even greater reliance on rotorcraft support as a result of 
improvised explosive devices, which have restricted ground 
movement. Based on current planned force structure reductions, 
the demand for rotorcraft capability will even be more critical 
in the future. Maintaining a healthy fleet of rotorcraft 
equates to the total force having the ability to cover the wide 
area battle space as referenced in the national security 
strategy.
    The purpose of this hearing is to get an update from each 
Service as to the condition of their respective current 
rotorcraft fleet and plans for future upgrades and 
modernization. In addition to various platform updates, the 
committee hopes to learn how the Services are utilizing 
research and development dollars to develop the next generation 
of rotary wing systems and subsystems. And finally, given the 
likelihood that there will be a continued or even greater 
dependence on rotorcraft in the future and the likelihood that 
rotorcraft will have to operate in greater threat environments 
than they currently do in Afghanistan, the committee expects to 
learn what each Service is doing in regard to aircraft 
survivability equipment and how they are working together to 
maximize resources.
    Again, I thank all of you for your service to our country 
and for being here. I look forward to your testimony.
    And now to my good friend from Texas, the ranking member, 
Mr. Reyes.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 29.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. Thank you, Mr. Chairman.
    And let me add my welcome to all of you. Thanks for being 
here and thanks for your service.
    Today's hearing on DOD [Department Of Defense] rotorcraft 
programs is the first Tactical Air Land Forces hearing 
specifically covering these programs, I believe, in many years, 
and based on the budget request for fiscal year 2013, a hearing 
is definitely warranted for several reasons.
    One major issue is the cost of these rotorcraft programs 
and how they impact other areas of military service budgets. 
The Army 2013 request, for example, includes $4.3 billion for 
procurement of upgraded and new rotorcraft, including Black 
Hawk, Chinook, Apache, Kiowa, and Lakota helicopters.
    By comparison, the Army's request for weapons and tracked 
combat vehicles in 2013 is only $1.5 billion, less than half as 
much.
    The Marine Corps' request for rotorcraft programs totals 
$1.4 billion for just two major programs, the new AH-1Z and the 
UH-1Y helicopters and CH-53K development programs. If one adds 
the V-22 program to that amount, the total for the Marine 
Corps' request is more than $3 billion. This $3 billion total 
exceeds the Marine Corps' entire ground equipment procurement 
budget, which is about $2.5 billion.
    The many--the other two Services have somewhat lower 
requests, with the Navy's request at $1.2 billion and the Air 
Force coming in somewhere around $500 million. If one totals up 
the Service requests for rotorcraft programs, you get around $9 
billion, with the vast majority of that funding being 
procurement of new or upgraded aircraft.
    So it is clear that rotorcraft programs are a priority for 
all the Services and, in particular, of course, the Army and 
the Marine Corps. Overall, this strong investment in updating 
and replacing the services of rotorcraft fleets, I think, is a 
very good thing.
    However, one concern that I also have is how skewed this 
funding request may be in favor of production of new manned 
rotorcraft as opposed to research and development of new 
rotorcraft for future use. This imbalance is in part the result 
of termination of almost every new manned rotorcraft program 
DOD has tried to start in recent years. As an example, the Army 
has little funding for R&D [Research and Development] of new 
rotorcraft after the termination of the Comanche and Armed 
Reconnaissance Helicopter programs. The program intended to 
follow those two efforts remains mired in seemingly endless 
analysis of alternatives with, from our perspective, no clear 
path forward.
    Likewise, the Air Force cancelled the CSAR-X combat rescue 
helicopter program in 2009, and this year cancelled its program 
to replace the aging U-1 Huey helicopters. Both have yet to 
restart.
    The Navy continues to struggle with defining requirements 
for the new Presidential helicopter almost 3 years after 
termination of the VH-71 program, again in 2009. Only the 
Marine Corps has a large-scale and so far successful R&D 
program underway with the CH-53K heavy lift helicopter program.
    Another concern that I have is the lack of commonality in 
some mission areas between our respective Services. The Army, 
Navy, and Air Force all fly variants of the UH-60 helicopter, 
which produces significant savings in both production and 
support costs. The Marine Corps, in contrast, is fielding 
rotorcraft unique in DOD, including the upgraded AH-1Z Cobra 
and the UH-1Y Huey and, of course, the CH-53E Super Stallion. 
This does not mean that the Marine Corps programs should be 
stopped or reduced, but I do believe that it does raise the 
issue of how in the future, at least for the next generation of 
rotorcraft, DOD can better achieve truly joint solutions.
    Finally, with respect to the unmanned rotorcraft, there are 
several promising research and development efforts underway, 
with the Navy and Marine Corps leading the way with the MQ-8 
and the Cargo Resupply Unmanned Aerial System. While funding 
for these efforts is relatively small at this point compared to 
our manned rotorcraft programs, they could be important 
waypoints toward future efforts.
    So, with that, Mr. Chairman, I look forward to the 
testimony from our guests, and I yield back the balance of my 
time.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 31.]
    Mr. Bartlett. Thank you.
    Without objection, all witnesses' prepared statements will 
be included in the hearing record. It is my understanding that 
there will be three oral statements, one representing the Navy 
and Marine Corps; second, the Army; and third, the Air Force. 
The first testimony is from General Robling, representing the 
Navy and Marine Corps.

 STATEMENT OF LTGEN TERRY G. ROBLING, USMC, DEPUTY COMMANDANT 
 FOR AVIATION, U.S. MARINE CORPS; RADM WILLIAM F. MORAN, USN, 
DIRECTOR, AIR WARFARE DIVISION, U.S. NAVY; AND RICHARD GILPIN, 
   DEPUTY ASSISTANT SECRETARY OF THE NAVY AIR PROGRAMS OFFICE

    General Robling. Chairman Bartlett and Ranking Member 
Reyes, distinguished members of the subcommittee, it is our 
honor to appear before you today to discuss the Department of 
the Navy's rotorcraft modernization programs.
    Testifying with me today are Mr. Rich Gilpin, Deputy 
Assistant Secretary of the Navy for Air Programs, and Rear 
Admiral William Moran, the Navy's Director of Air Warfare.
    And as you stated, Mr. Chairman, I will keep our oral 
remarks brief, and I will submit our combined statement for the 
record, including the questions requested by the subcommittee.
    I would like to begin by thanking the members of the 
subcommittee for your support of our programs and our marines 
and sailors. Eleven years into sustained combat operations, we 
continue to see marines and sailors perform magnificently. They 
could not perform their missions without the tools of their 
craft. The vertical lift capability of the Department's 
rotorcraft platforms is one of the key enablers in combat.
    Last year we embraced our past history, as Naval aviation 
celebrated its centennial. This year, Marine Corps aviation is 
doing the same. It was nearly 66 years ago, in 1946, when Major 
Armand Delalio was designated as the first Marine helicopter 
pilot. Our workhorse of the fleet, the CH-53, flew its first 
flight in October of 1964. The CH-53 Delta has recently flown 
its last flight on U.S. soil, but it continues to provide 
expeditionary heavy lift, as it has since its beginning in 
combat. This final deployment will retire those aircraft in 
place in Afghanistan later this summer.
    While the requirement to accomplish our missions have not 
abated, we recognize that today our Nation faces immense 
challenges. The budget reductions necessitated by the Budget 
Control Act remind us of the unquestioned need to be good 
stewards of our resources and to be prudent in our spending. We 
continue to actively manage our current rotary craft inventory. 
The MV-22 cost per flight hour decreased 13 percent in fiscal 
year 2011, and the program received the prestigious David 
Packard Excellence in Acquisition Award, which recognized 
exemplary performance and innovation acquiring and delivering 
products and capabilities to the warfighter.
    We will begin our AH-1 Zulu build new procurement strategy 
in fiscal year 2013, which eliminates the AH-1W remanufacture 
process and enables a faster recovery from the USMC's current 
attack helicopter shortfall. The VH-3 Delta and the VH-60 
November continue to provide seamless vertical lift for the 
President and the Vice President of the United States, while 
the Presidential helicopter replacement aircraft effort focuses 
on completing the update to the analysis of alternatives and 
continues to develop an acquisition strategy that targets 
affordability, cost control, and reduction of risk prior to the 
awarding of any major contracts.
    We must persist in modernizing and recapitalizing our Naval 
aviation forces by the most affordable means possible. With 
your assistance, we are leveraging our buying power with 
successful multiyear procurements on the V-22 and H-60, 
achieving substantial procurement cost savings. The H-1 
upgrades program has seen aircraft delivered ahead of the 
contracted schedule and on budget. We have increased our 
lethality with such low-cost weapons as the Advanced Precision 
Kill Weapon System II.
    Upgrades to the MH-60 Romeo and MH-60 Sierra have 
significantly improved the antisubmarine warfare and surface 
warfare capabilities of the fleet. Still in development is the 
CH-53K, which will have nearly triple the lift capability of 
the current CH-53 Echo. The CH-53K program was recently awarded 
the Robert L. Pinckney Award from the American Helicopter 
Society International. This award is given in recognition of 
notable achievement in manufacturing research and development 
of rotorcraft or rotorcraft components.
    Finally, the Department of the Navy is looking toward the 
future, and we are actively participating with the other 
Services in the DOD-led future vertical lift initiative. I 
would like to thank you once again for the opportunity to speak 
here today, and we welcome your questions on the Department of 
the Navy's rotorcraft modernization programs.
    [The joint prepared statement of General Robling, Admiral 
Moran, and Mr. Gilpin can be found in the Appendix on page 33.]
    Mr. Bartlett. Thank you.
    Now General Crosby from the Army.

     STATEMENT OF MG WILLIAM T. CROSBY, USA, PEO AVIATION 
                    HEADQUARTERS, U.S. ARMY

    General Crosby. Good afternoon, sir.
    Chairman Bartlett, Ranking Member Reyes, and distinguished 
members of the subcommittee, thank you for calling this 
hearing.
    I am pleased to be here today to discuss Army aviation and 
welcome this opportunity to testify before you. On behalf of 
our great Army, I appreciate the tremendous and ongoing support 
this committee has provided to our soldiers stationed around 
the world. I know you all will be able to agree that our 
soldiers have performed magnificently and their families have 
sacrificed much for our Nation over this past 10 years.
    You specifically asked that the Army address several 
concerns on the Army aviation modernization. Army aviation is, 
without a doubt, the best in the world, employing cutting-edge 
technology that provides an invaluable capability, making it 
indispensable on the battlefield. This capability is only as 
good as the aviation soldiers who operate and maintain these 
great systems worldwide.
    Our relationship with the ground force is the best that it 
has ever been in Army aviation's history. Achieving such a high 
level of professional excellence took years of hard work by a 
new generation of air and ground warriors, who fully respect 
the warfighting accomplishments of each other. It is our 
dedication to supporting the ground commander that helped 
establish a collaborative environment among the various members 
of the aviation enterprise over the past several years and will 
serve as the foundation for our future success.
    The Army recognizes that in our current fiscal environment, 
we must share in the responsibility of finding new and 
innovative ways of acquiring and sustaining our Army aviation 
weapons systems, smarter, faster, cheaper, and more 
effectively. As such, we have taken a proactive approach to 
aviation modernization plan that ensures the balanced long-
range approach. We recognize that we must adapt our plan while 
avoiding the natural tendency to cut our investment programs to 
meet short-term mandates. Our plan accepts risk in some 
modification improvements, minimizes the impacts to our 
industrial base by preserving our multiyear contracts and 
increases the production plan by 3 to 5 years in the long term, 
which means we would reduce quantities in the near term.
    We have done this to preserve our science and technology 
investments in a future vertical lift, maintain our path to 
address the deficiencies in the Scout mission area, and 
continue our procurement and modernization of our current 
platforms and our unmanned aircraft systems.
    My written testimony outlines in more detail our plan in 
maintaining and sustaining Army aviation and modernization 
plans and addresses your specific concerns. With the current 
resource environment, we are going to have to take the best 
solution we can with the best potential for success without 
compromising safety, identity--excuse me, identify what those 
impacts are early, and determine the best course of action to 
give our soldiers what they need at a price that we can afford.
    As our Army cares for its aging fleet, we will continue to 
support the development and execution of a new investment 
strategy that will provide for new platforms ready to field in 
the 2025 timeframe and beyond. The joint future vertical lift 
aircraft is an integral part of our long-range plan, and part 
of our balanced approach to maintain our investments; 2030 is 
the aim point for a new system to replace our aging fleets, and 
our initial effort will be focused on the attack and utility 
mission areas, which comprises about 75 percent of our current 
fleet.
    Science and technology investments today in subsystems like 
the improved turbine engine program and the other identified 
and enabling technologies are critical to maintain our planned 
schedule. In continuing to modernize our fleet, our investments 
have produced a healthy inventory of aircraft that are still 
high in demand in Afghanistan, Iraq, and other places in the 
world where our soldiers have answered our Nation's call. We 
will need a faster and more survivable aircraft after 2030 to 
remain effective.
    Additionally, we continue to execute our multiyear 
contracts, which have gained our taxpayers significant savings 
over the prices that would have result in the Army-awarded 
single-year contracts.
    Army aviation programs and their foundations are solid, and 
we have a modernization strategy for the future. Our aircraft 
and equipment are the best America can provide and that have 
displayed readiness in flying hour OPTEMPO [Operations Tempo] 
rates that far surpassed expectations.
    More importantly, we have answered the calls to integrate 
our capabilities with various combined arms teams, sustaining 
forces and joint agencies.
    The fiscal year 2013 President's budget is supportive and 
representative of Army aviation priorities. While we desire to 
field our modernized aircraft as quickly as possible, a balance 
among other Army priorities has been accomplished in this 
fiscal year 2013 budget request. Your committee has been very 
supportive of Army aviation budget requests in the past. I am 
confident you will conclude the Army has optimized an aviation 
modernization, given the fiscal realities within the Army's top 
line budget.
    Again, the credit for Army aviation's success and continued 
support from senior leaders belongs to the soldiers on the 
ground who will always be our utmost priority. Whatever we do, 
we cannot allow our tremendous relationship in supporting the 
ground force commander to degrade. It is this strong 
relationship that will be the lens by which we look towards the 
future and the benchmark by which we will measure success. As 
we move ahead, Army aviation will continue to ensure we reduce 
the burden on the soldier.
    The next several years will be pivotal for Army aviation. 
The resources provided to the Army to conduct aviation 
operations while modernizing for the next generation of 
aviation capabilities will determine the Army's ability to 
continue to accomplish its mission and be postured to meet 
future commitments. To execute these plans, we need your 
continued leadership and support and provide full, timely, and 
sustained funding so we will be ready for current and future 
challenges. I am ready to address any questions you may have, 
sir. Thank you.
    [The prepared statement of General Crosby can be found in 
the Appendix on page 46.]
    Mr. Bartlett. Thank you.
    And finally, we have General Kane from the Air Force.

  STATEMENT OF MAJ GEN ROBERT C. KANE, USAF, DIRECTOR, GLOBAL 
  REACH PROGRAMS, U.S. AIR FORCE; AND MAJ GEN NOEL T. JONES, 
 USAF, DIRECTOR, OPERATIONAL CAPABILITY REQUIREMENTS, U.S. AIR 
                             FORCE

    General Kane. Chairman Bartlett, Ranking Member Reyes, and 
distinguished members of the subcommittee, thank you for the 
opportunity to update you on key Air Force rotorcraft 
acquisition programs and modernization efforts. I would like to 
briefly highlight our special operations, personnel recovery, 
nuclear security, and continuity of Government missions and 
platforms.
    U.S. Special Operations Command uses the CV-22 Osprey to 
provide long-range insertion, extraction, and resupply of 
Special Operations Forces in hostile, denied, or politically 
sensitive airspace. In order to successfully meet its CV-22 
taskings, the Air Force continues to fully support the program 
of record of 50 aircraft. The current CV-22 fleet stands at 23 
aircraft, with the final buy of 7 aircraft scheduled in fiscal 
years 2013 and 2014. Declaration of full operational capability 
will be made following the delivery of the last CV-22 in fiscal 
year 2016.
    Under the current fiscal constraints, it is important to 
note that the CV-22's capabilities, reliability, and 
availability are increasing, while operating costs are 
decreasing. Future modifications and improvements to the CV-22 
will make the aircraft even more effective, reliable, and cost-
efficient. For example, we have begun CV-22 Block 20 baseline 
production as well as retrofit modifications to improve 
operational safety and effectiveness. Notably, these 
enhancements will improve line-of-sight and beyond-line-of-
sight communication systems to rein in crew situational 
awareness capabilities and defensive systems.
    In terms of current operations and sustainment, our five 
deployed CV-22s executed 635 sorties and 1391 hours between May 
of 2011 and January 2012 with an almost 75 percent mission 
capable rate. This includes some recent engine time-on-wing 
improvements that have increased time between engine removals 
by 173 percent. Beyond improved capability, this translates 
into an estimated $16 million in savings per year.
    Additionally, the Joint Program Office is investigating 
modifications to the engine inlet geometry, engine blade 
coatings, and the high-power turbine case design to further 
improve engine time on wing. While the CV-22 aircraft 
procurement phase nears completion, we are moving to address 
HH-60G fleet availability issues. Our HH-60G combat search and 
rescue platform is a low-density, high-demand asset. During the 
past 10 years, our heroic crews have rescued over 12,000 
military and civilian personnel. This past year, HH-60G crews 
performed 16 combat search-and-rescue missions and 2,100, over 
2,100 casualty evacuation missions.
    This high demand has taken a toll. Only 99 of the original 
112 aircraft still exist. Of those 99, only 93 are currently 
flyable. Major structural cracks have been found on 66 of the 
99 aircraft, with 49 sustaining battle damage in the last 2 
years. Aircraft availability is approximately 60 percent and 
expected to decrease to 50 percent by 2015 due to continued 
component obsolescence and structural issues.
    The Air Force is taking a three-step approach to address 
this shortfall. First, we are modifying the existing HH-60G 
helicopters to keep them viable until the Air Force can fully 
recapitalize the fleet. Second, the Air Force has implemented 
the operational loss replacement program to return the HH-60G 
fleet to numbers capable of meeting our operational 
requirements. This is only a temporary bridge to a final 
solution, which is to replace the entire fleet.
    To this end, the Air Force released a draft request for 
proposal for a full and open competition on 16 March of this 
year, with the final RFP planned for release in May. Contract 
award is planned for spring of 2013, with initial operational 
capability in 2018. With these combined efforts, the Air Force 
will be able to maintain its commitment to personnel recovery, 
a moral imperative for supporting our men and women on the 
front lines.
    The Air Force also has two other critical vertical lift 
missions, National Capital Region support and nuclear security. 
The current UH-1N fleet, which entered the Air Force in 1970, 
cannot fully meet the requirements of these missions, lacking 
sufficient range, speed, payload, endurance, survivability, and 
number of aircraft. The 2013 President's budget terminated the 
common vertical lift support platform program, which was 
intended to replace the UH-1N fleet.
    Until a long-term replacement is possible, the Air Force 
will consider other strategies to mitigate aircraft safety and 
capability gaps. In the near term, we are evaluating safety and 
capability improvements, specifically the installation of 
crashworthy seats and night-vision-compatible cockpits.
    In addition to these modifications, we are considering 
upgrades to training systems that would lower training costs, 
decrease the UH-1N flying hour requirement and extend, and 
hopefully extend the useful life of these airframes.
    Finally, the Air Force is pursuing the transfer and 
appropriate modifications of up to 22 UH-1Ns from the Marine 
Corps while we develop a long-term solution.
    Thank you for the opportunity to address the subcommittee. 
I appreciate your strong support for the Air Force and our 
rotorcraft programs, and I look forward to answering your 
questions.
    [The joint prepared statement of General Kane and General 
Jones can be found in the Appendix on page 62.]
    Mr. Bartlett. Thank you all very much for your service and 
your testimony. As is my practice, I will reserve my questions 
until last.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your testimony.
    And, you know, having had the opportunity to be at the 
initial stages of the rotorcraft, the helicopter being used in 
combat in Vietnam, this is an area that I am very much 
personally interested in, and so it is hard for me, based on 
what we are understanding from the committee, to see that to 
one degree or another, the Services seem to lack a clear 
understanding or idea of what they want for the next generation 
of rotorcraft. As a result, there have been numerous delays in 
the getting new rotorcraft R&D programs on track with, I am 
being told, the last five major service programs being 
terminated. Those were the Comanche, the VH-71, the ARH [Armed 
Reconnaissance Helicopter], the CSAR-X [Combat Search and 
Rescue], and the CVLSP [Common Vertical Lift Support Platform].
    So the questions I have regarding this are why have we seen 
so many failures in the new rotorcraft R&D efforts? What is 
each of the Services doing to better define what they will need 
or what they will want, what kind of capabilities you will want 
for future operations? And what specific R&D investments are 
each of you prepared to make in order to better understand the 
rotorcraft technology of the future? So if any or all of you 
are willing to take a shot at that, I would appreciate it.
    General Robling. Sir, I will take the first shot at that. 
So thanks for that question.
    I think, you know, the Marine Corps, we are into our future 
vertical lift programs right now. We are into them, and we 
started 10 to 12 years ago starting to downsize the Marine 
Corps' type model series, both fixed wing and helicopter, into, 
you know, six or seven type model series. We are flying 
aircraft right now, the CH-46, the H-3, that are over 40 years 
old, in some cases, still flying, over 40. So we buy those on a 
20-year or 30-year program, and we have stretched them to 40 
years, and in some cases, the, you know, CH-46 is at 80 percent 
readiness levels. Right now, our CH-53 is, in 2014, will be, 
the Echo will be 30 years old. Some of those aircraft will fly 
another 10 years. We will require that to do that until we get 
the 53K online.
    So you are asking me about our future vertical lift, that 
is our future vertical lift, heavy vertical lift, is the CH-53K 
that we expect once we get IOCed [Initial Operational 
Capability] and get their full eight squadrons, that we will 
probably be flying that aircraft another 40 years. We have 
taken the UH-1 November, which very old aircraft in the 
Whiskey, and bought the or looking to procure the Yankee and 
Zulu. The UH-1 November, when I went to OIF-1 [Operation Iraqi 
Freedom] with General Amos as the wing commander and I was his 
assistant and then Major General Mattis was his First Division 
Commander, when General Mattis wanted a route recon aircraft to 
route recon his area, I couldn't put him in a UH-1 aircraft. If 
I put two marines in the back with 50 cal machine guns, I 
didn't even have enough room for an ice chest or cold drinks, 
and so we had to stick him in a CH-46. You can imagine that 
made him pretty happy.
    So we are getting to the end of the life of those aircraft, 
and the moneys that we put into both R&D, in this case the H-1, 
this year, $31 million in R&D to upgrade those aircraft and 
continue to buy them and, as you pointed out, $824 million to 
buy at least the 15 Yankees and the 13 Zulus that we are going 
to buy in this FYDP [Future Years Defense Program]. And of 
course, we do have $606 million across the FYDP in R&D for the 
CH-53K, which we are hoping to IOC in fiscal year 2019. So 
while we are looking forward, I think the Marine Corps is in 
its future vertical lift right now. We are participating in 
OSD's [Office of the Secretary of Defense] future vertical lift 
program. We are putting money toward that with the rest of the 
Services as we look ahead to aircraft that are coming off the 
shelf that may provide, you know, technologies that provide us 
faster aircraft, always looking to go faster, carry more people 
with less cost and those kind of things, and so I think the 
answer to that, at least for the Marine Corps, is we are 
involved.
    Mr. Reyes. The 46 is a Sea Knight, right?
    General Robling. That is correct, sir.
    Mr. Reyes. When I got to Vietnam in March of 1967, the 
Marines were flying CH-34s, the big radial engine lumbering. So 
that is why we are very much interested in making sure we have 
these programs that will advance our capabilities into--and 
turn R&D programs into rotorcraft that would provide the needs 
of, you know, future marines, sailors, Army, and Air Force. 
Anybody else want to comment on that?
    Mr. Gilpin. Yes, sir. I wanted to thank you for your 
question relative to Presidential helicopter; I wanted to give 
you a sense of where we are going with that. You were right 
when you mentioned that getting clarity on requirements is 
probably critical to what we need to do and probably one of the 
shortcomings we faced as we face the challenge on the VH-71 
program. So we are taking some time to make sure we get the 
requirements well understood, well coordinated between what is 
required for the marines that operate those helicopters as well 
as our customer, the White House in this case, and working very 
hard to do that.
    Our analysis of alternatives is nearly complete. In the 
meantime, we are sustaining the current fleet of helicopters, 
making some improvements to those, updated communication suite, 
updated vulnerability improvements and the like, and those 
technologies will be used to, as a starting point when we go 
into the VXX [Presidential Helicopter Replacement Program] 
program.
    So we are developing an acquisition strategy, taking 
advantage of leveraging that new technology and to developing 
the future helicopter, and we should have a solution that is 
quicker to service and at an affordable price.
    General Crosby. Sir, I would like to pile on to that if I 
could.
    During your time in Vietnam, we were flying--the same CH-
47s that you saw there; we are still flying them today. So they 
have been upgraded a little bit, thanks to you all's help, but 
we are still flying them.
    We are looking at this in kind of a balanced approach. You 
know, the normal tendency in a constrained environment is to 
cut your investments, and I think your comments have shown or 
reemphasized to us what we already believe, that you have got 
to look at it as a balanced approach because if you cut off 
your investments 10 years down the road, we have no new 
program.
    So we are looking to, if you will, sustain what we have 
currently today to modernize, which is more of a challenge 
today than in the past because technology is turning over so 
fast, and then the third one is to put those S&T [Science and 
Technology] dollars towards developing that long-range plan.
    My Marine Corps brothers mentioned the future vertical 
lift. There is a study that has been done; I know you all are 
anxiously awaiting the release of that. Our Vice Chairman of 
the Joint Chiefs has it on his desk now. Then it will go to the 
DEPSECDEF [Deputy Secretary of Defense] for approval and then 
released to you.
    It lays out a road map for all of us, the Services together 
looking forward, and it identifies kind of a scalable 
architecture of rotary wing or future vertical lift platforms, 
a reconnaissance or a light; a medium, which is attack utility; 
a third is kind of a cargo heavy lift; and then the fourth 
would be an ultra, so a scalable, where you can have similar 
technologies across the power to train in those systems. The 
one that we have elected to go after first for the best return 
on our investment--we are the biggest parade on rotary wing in 
the Army, but 75 percent of my fleet is in the attack utility 
variant. So what that means is, in a limited budget 
environment,that means we are going to have to take some risk 
in some other areas in our portfolio. So when I mention 
sustainment and I mention upgrades, we are going to have to 
focus on balancing those; the Scout area is one where we can 
accept some risk, and I expect to get another question on that 
here in a little bit. But we will accept some risk in those 
areas to focus on that long-range investment to get a medium-
lift variant. And, you know, the medium lift is a utility which 
we buy all across here is all common in the Black Hawk or the 
variants of it for the Services.
    So we see that as the next generation, and all my brothers 
to my right and left are participating in that. So we see a lot 
of potential for a joint variant coming out of that effort.
    General Kane. Thank you, Congressman Reyes, for the 
question.
    We agree with General Crosby in his assessment of the 
future vertical lift efforts and our participation in that, but 
currently, the Air Force is pursuing, for the most part, off-
the-shelf technologies. And R&D efforts are primarily aimed at 
integrating, again, commercial or not commercial off-the-shelf 
but currently available off-the-shelf systems into the combat 
rescue helicopter, and that would have been the same in the 
case of the CVLSP that was cancelled this year.
    Our R&D, this effort, then, in developing off-the-shelf 
capabilities and the integration will take us through the 
capabilities gaps into the 2030 timeframe, which brings us into 
that timeframe of the future vertical lift strategy.
    The Air Force is investing in several, in particular, 
degraded visual environment technology solutions, and we are 
leading the way in 3D landing zone technology development. One 
of the points I would have to make is that we only have 5 
percent of the rotary wing fleet in the Air Force, and as such, 
our contributions to that R&D effort are not quite as great as 
the other Services. And we definitely capitalize on the efforts 
of our brothers down the table.
    Thank you, sir.
    Mr. Reyes. Thank you all.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I thank the panel for being here today. I would like to 
talk first about the common vertical lift support platform.
    And I guess General Kane, the fiscal year DOD budget 
included $52.8 million in funding for this program and proposed 
no money in fiscal year 2013. We now understand that the common 
vertical lift support platform will not go forward. And the Air 
Force has, instead, decided to take used Marine Corps UH-1Ns 
destined for the ``boneyard'' and use the common vertical lift 
support program funding to recondition these aircraft, which 
some say are just unable to meet the requirements as the Air 
Force needs them.
    The question is, wouldn't it be better use of the almost 
$53 million of the common vertical lift support platform 
funding to introduce an aircraft that can meet your 
requirements of the mission, even if it is limited quantities 
for now but considering the future. And the second part of that 
is additionally, without the acquisition resources available to 
satisfy this urgent and compelling need, as many of us see it, 
has the Air Force considered any more affordable alternatives, 
such as leasing aircraft to accomplish this mission?
    General Kane. Thank you for the question, sir.
    Basically, the requirement for the helicopter, for the 
common vertical lift support platform, for both the nuclear 
mission and the continuity of Government mission here in the 
NCR [National Capital Region] has not changed; the requirement 
remains the same. So the current platforms still lack in 
capacity, speed, range, endurance, force protection, 
survivability capabilities.
    What we are doing right now is the Air Force, because of, 
frankly, some of the budget issues; we are taking a, what we 
are calling, an acquisition pause. And it is going to give us 
an opportunity to take a look at potentially more cost-
effective ways of filling the requirements for this important 
mission. What we are doing is looking at--we have started by 
looking at things like enhancing the security at the missile 
sites by enhancing hardening and surveillance capabilities.
    We are looking at the potential for changing the way the 
mission in the NCR is tasked, and we are looking at exploring 
other excess defense articles that might be modified into a 
platform that could satisfy that requirement better.
    In terms of the Marine Corps UH-1Ns, the 22 that you have 
spoken about, we currently do not have a plan to spend that 
CVLSP money, the $50 million, on modifying those airplanes. We 
are going to, when we accept those airplanes between 2012 and 
2014, we will put them into a storage condition. And we are 
going to have to study them to determine what sort of 
modifications would be necessary to either make them viable to 
participate in the mission, to be used for spare parts or what 
other disposition we would determine.
    In terms of the CVLSP money, we do have, we will have some 
potential requirements, as I mentioned in my opening statement, 
to do safety, obsolescence. And then there will be some 
equipment availability or diminishing manufacturing sorts of 
issues with the current fleet that will have to be mitigated, 
and that is still open for decision in terms of whether some of 
that money might be used for the current fleet, but not to 
modify the aircraft that are being transferred from the Marine 
Corps.
    Mr. LoBiondo. So there is no discussion about leasing?
    General Kane. No, sir, I don't recall any discussions from 
the program office in terms of leasing as one of the options, 
but there is nothing to say that we couldn't explore that as an 
option along with all the others for meeting this in a more 
cost-effective way.
    Mr. LoBiondo. So, essentially, the money for the common 
vertical lift support platform, that almost $53 million, is not 
going to go towards operational needs of the Air Force. It is 
going to, just to wind down the program; is that what I am 
hearing?
    General Kane. The $53 million would be either rescinded or 
returned to the Air Force for other operational requirements at 
this point, but as I mentioned, we are creating a proposal for 
use of some of the funding that could--crashworthy seats, 
night-vision-capable cockpit equipment--that could enhance the 
capabilities of the current fleet in the short term. Decisions 
on that have not been made.
    Mr. LoBiondo. Okay, thank you, General.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your service to 
our country.
    General Crosby, based on the elimination of the Sherpas and 
the C-27Js, with the move to the Air Force and then for close 
support, now we are only going to be using C-130s, has the Army 
adjusted or taken into account in your vertical lift plan or in 
this budget request any changes that will be made because now 
the Black Hawks will be used? Is there any changing in the plan 
and usage of Black Hawks due to this loss of the close support?
    General Crosby. No, sir. The changes--when we had the C-27 
program, we, the Army resourced that, and the program office, 
of course, was under my control to procure that system to do 
that immediate mission for the Army. The senior leadership of 
the Army and the Air Force got together and made a decision; 
that was the Air Force mission. The Air Force agreed to take 
it, so we transferred that program to them. At that point 
there, was no funding or plan for the Black Hawk and Chinook to 
do any additional because we were going to have the C-27 to do 
the mission.
    Mr. Critz. Right.
    General Crosby. Now, having said that, we have always 
counted on our utility aircraft and our cargo aircraft to go 
into those air fields where a fixed wing can't get to. There 
are many places in Afghanistan that it doesn't matter whether 
it is a Sherpa or a C-27 or C-130, they are not going to get 
there. So some of that resupply is going to continue to be done 
with our Black Hawks and Chinooks, and that has always been 
part of the plan, so, no adjustment there.
    There are some air fields, a small number, that the C-27 
could get to that the C-130 can't, about 1 percent I think, 
which is very negligible across Afghanistan. I will let my Air 
Force brothers talk to more detail of that. But the bottom line 
is there are C-27s there today. There are C-130s there today 
doing that time-sensitive mission for us, but I am not going to 
blow smoke, there are also missions over there that are being 
done by those Chinooks and Black Hawks because no fixed wing 
can get there.
    General Jones. Congressman, I will just add to General 
Crosby's remarks that the Air Force is committed to providing 
the resources required, as asked for and tasked by the 
combatant commander. And we believe the C-130 is capable of 
doing that mission. In some environmental conditions, we 
believe it is better than the C-27, from a capacity standpoint, 
from a power pad standpoint. As General Crosby mentioned, there 
are a very small number of fields that the C-27 can get to that 
the C-130 cannot, but we believe that we can meet any 
requirement and are standing by for any additional tasking from 
the theater as required.
    Mr. Critz. Okay, so if I understand correctly, there is not 
any--no one sees any change in the tempo of usage of Black 
Hawks and Chinooks to backfill where C-27 may have been able to 
get in?
    General Crosby. No, sir. That is correct, sir.
    Mr. Critz. Okay, thank you. A couple years, 2\1/2\ years 
ago Department of Defense acquisition technology and logistics 
leadership asked industry to self-form the Vertical Lift 
Consortium. Based on the Department's experiences over the last 
2\1/2\ years, can any of you comment on what the results of 
this partnership are and how the VLC will be utilized for 
future vertical lift initiatives?
    General Crosby. Sir, I will jump on that one because the 
Army has been very heavily engaged in that. The consortium, as 
I understood it, when we stood that thing up, was because we 
see duplication out there, I mean, industry have been great 
partners. They have got independent research and development 
dollars, they have, we have our S&T dollars.
    What we were trying to preclude is duplication where we had 
a bunch of people going after the same technologies. The other 
thing is we in the Government, we don't do a lot of 
development, cutting-edge technology development. Our partners 
in industry, that is what they do, so we were willing to bring 
them on to be advisers to guide us as we look at these enabling 
technologies we needed to go to the future to prevent us from 
going down a rat hole and getting after something that really 
wasn't achievable.
    So we brought them to be as an advisory panel. There was no 
commitment to award contracts of scope or anything like that. 
It was more of an advisory panel. In that, in this future 
vertical lift group that we have that meets--and we are going 
to meet again; we are supposed to meet this week; it has been 
delayed a week--we are looking at that joint vertical lift 
medium that I mentioned. Those team members from the consortium 
sit on and participate as part of that team. This is not a 
Government-only thing. It is a joint and industry team that 
sits and advises, and they brief each time we get together as 
part of that. We consider that very critical, especially as S&T 
dollars get even shorter, so that we can encourage them to 
invest their IR&D [Internal Research and Development] towards 
those same, because I am not going to be able to go after all 
the enabling technologies we need. Hopefully, they will be able 
to pony up in some areas and help as well to get us towards 
that next hurdle, if you will. Does that answer your question, 
sir?
    Mr. Critz. Yes, and just to go one step further, we are 
2\1/2\ years in. Is there anything that can be identified as 
deliverable at this point that has been generated through this?
    General Crosby. As a result, I believe this summer, we will 
have a result. We have funded a couple of demos that are going 
to give us as a result of their help and the actual contract 
effort, we should come out with a performance specification of 
what we think this aircraft should be. We don't know. Some 
people are saying that, you know, it is going to be rotary 
wing. We don't know that. It may be a vertical lift. It may be 
a tilt rotor of some sort that we are going to go to, but based 
on the wind tunnel studies and the demonstrators that we have 
done and the input of this team, including the consortium, we 
hope to have a deliverable this summer of a specification that 
will guide us toward what our next step will be that we are 
going after. Does that make sense?
    Mr. Critz. Yes. Thank you. So you said this summer?
    General Crosby. This summer.
    Mr. Critz. Okay. Changing gears but again for you, General, 
the Army's budget request, $272 million for 34 Lakota light 
utility helicopters. As I understand it, the Army's current 
policy doesn't permit these helicopters to be deployed in 
nonpermissive environments because of the 72's lack of 
defensive protection. Is the Army reconsidering this 
restriction on the Lakotas? And why not use them somewhere 
overseas like the Balkans or where the threat is low?
    General Crosby. Sir, that is a great question and it is one 
that is asked a lot by our industry partners. The LUH [Light 
Utility Helicopter], as you know, was bought, and it is what we 
consider a noncovered system. Therefore, we did not apply any 
aircraft survivability equipment to it. We did not do live 
fire, and the first question that comes in our mind of whether 
we allow this thing into a nonpermissive environment is the 
safety of that air crew.
    Mr. Critz. Right.
    General Crosby. And because we have not provided all those 
safety provisions, now we know what it would cost to do that, 
we have estimated it if the decision is made to go do that, but 
my understanding as an acquisition guy that procures and 
maintains and sustains these systems, the Army is not 
entertaining at this time any option to go forward and put it 
in a nonpermissive environment. We are putting it in some 
pretty complex missions as far as doing the Border Patrol and 
working with the National Guard and Reserves doing that 
mission, but that is not considered a nonpermissive 
environment. So my understanding right now, the Army position 
is we are not pursuing to put this aircraft in anything but as 
agreed to initially in the permissive environment.
    Mr. Critz. Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and thank all of you 
for being here today.
    And, General Crosby, I think because you are sitting in the 
middle, all the questions are coming your way, but I am 
concerned about the issue of American tax dollars being spent 
to procure Russian-made Mi-17 helicopters for the Afghani and 
Iraqi air forces. As colleagues in the Senate have pointed out, 
we are purchasing these from--aircraft from a Russian company, 
Rosoboronexport, which is actively engaged in selling arms to 
the Syrian Government, which is in the midst of a murderous 
campaign that has already claimed nearly 9,000 lives.
    Why are we continuing to purchase the Mi-17 instead of an 
American helicopter with two alternatives? First, I understand 
it is not complicated to teach a pilot to fly a similar 
aircraft. Why would we not purchase a similar American-made 
aircraft, such as the S-61? And, secondly, with the large 
amount of alpha model UH-60s still in the American fleet, what 
is preventing us from transferring some of these aging aircraft 
to the Afghani and Iraqi air forces?
    General Crosby. Sir, if I stall, can I cut my time down? I 
am kidding.
    Mr. Wilson. Hey, you are still in the middle, but, anyway, 
good luck.
    General Crosby. Sir, that is a very tough question, I know 
one that everybody is wrestling with. We have to remember that 
the task that we have been given in Afghanistan and Iraq is to 
train those folks and equip them so that they can maintain and 
sustain their own military mission. The Afghanis have over 30 
years of experience in Mi-17s. For us to bring--so this was a 
decision that was waylaid to us; it was a decision to look at 
how much time, cost, and effort would it be to introduce an 
American-made system.
    Part of the responsibilities that you charter me with as a 
PEO [Program Executive Officer] is to maintain and watch over 
the industrial base of this country, so I do wrestle with that 
question, but the task was not to procure a utility aircraft 
that would work at that altitude; it was to buy an Mi-17 
because that is what they are already trained. We have to 
remember the folks that we are training and equipping and 
working with over there, many of them can't read and write, and 
to introduce and bring the complex systems that we have, and 
while the SH-61 and the UH-60 alpha may seem pretty simple to 
us, compared to an Mi-17, they are pretty complex. The 
sustainment, the training base, all of those things associated 
with it have to be introduced and new. So that was a decision 
process.
    Obviously, I didn't make that decision, but that was a 
decision process that was gone through when the Department of 
Defense and the State Department said go buy Mi-17s. Now I 
understand the concern about dealing with the Rosoboronexport. 
I will tell you that by us dealing directly with them, the 
sanctions came down that we are dealing directly with them, and 
you ask me, ``Knucklehead, why are you doing that?'' Simply, 
sir, because we have U.S. soldiers flying in, in the back and 
front of these airplanes, and we owe them the air worthiness 
and safety cognizance, and the only way that we could get that 
cognizance of those systems is to deal with them.
    If the decision is made by the leadership of this country 
not to do that, then we will adjust, but that is the, that was 
the thought process of why we are where we are. We think we 
have made great strides in providing safe systems for those 
soldiers to fly in and to train our allies in to fly that 
system. I hope that has answered your question. It is still one 
tough to wrestle with.
    Mr. Wilson. It does, but from new allies that we have, 
whether it be the former East Germany, the Slovakia, Poland, 
Bulgaria, Vietnam, hopefully they might have access. Anyway, I 
just urge you to look at that.
    A final question is I had the opportunity, the Marines gave 
me a really extraordinary flight on an MV-22 Osprey, and on a 
visit to Iraq, we landed on a soccer field in downtown Haditha. 
We were greeted by the mayor, the chief of police, city 
officials. It was extremely impressive for our allies. And also 
I think a message to the other people, too, that we have 
capabilities. And I am also aware that the MV-22, the V-22, 
that the speed could be very helpful for wounded troops to give 
added capability for recovery. Is the Army planning to 
introduce V-22 Ospreys into the fleet?
    General Crosby. At this time, sir, no. The Army is not 
planning to buy any MV-22s. The Air Force and their Special Ops 
do have some that provide a lot of that rapid response 
capability, in the CSAR role. We use--our MEDEVAC [Medical 
Evacuation] was the UH-60 and the HH-60 in the MEDEVAC role. 
And you know the hour that we have, that magical mile that we 
do to take care of those soldiers, we have been able to exceed 
that with the systems that we have. A little bit different 
focus, a little bit different mission for us than the Marine 
Corps. We can buy many more Black Hawks than we can for the 
cost of one MV-22. That is not a criticism of the MV-22. For 
what it does, it is absolutely the best one out there. It just 
doesn't fit in the mission set of what the Army does today.
    Mr. Wilson. Well, as a military parent with four sons 
serving in the military, I just want the best equipment. It 
surely impressed me that we can land on any soccer or football 
field in the world and how that projects our military 
personnel.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you all for being here to testify. As I have been 
to Afghanistan and Iraq, it is in my experience to fly on some 
of these rotorcraft, so it makes this discussion all the more 
real to me. But I have a question for I think anyone who wants 
to take it, and maybe that is all of you, but can you talk 
briefly about how our rotorcraft countermeasures are 
performing, and I can remember distinctly being in a Black Hawk 
in the sort of deep concentration that those who were tasked 
with flying it were engaged in to make sure we were safe, but 
can you talk about how these countermeasures are performing in 
Afghanistan, and in terms of R&D, what will be the game changer 
in developing the next generation of countermeasures to meet 
whatever threats we may be facing in the future? Who wants to--
--
    General Robling. I will give General Crosby a break here, 
he is probably getting thirsty. Ma'am, right now, our 
countermeasures are working very well. We are equipping, of 
course, the forward deployed 53s and the 46s with the most 
capable AIRCMM [Advanced Infrared Countermeasure Munition] 
system that we have got now, but all of the systems that we 
look to putting on our aircraft, both forward-firing flares, 
expandable chaff, radar-warning receiver capabilities, I think 
that the systems that we have now are working very well. We 
have R&D money against each of these aircraft to upgrade those 
systems as we pace the threat to include CIRCM [Common Infrared 
Countermeasures] and the JTS [Joint Tactical Simulation] system 
that is being developed by the Department of the Navy, which is 
another two-color system that is both IR and HIF [Hypoxia-
Inducible Factors] radar warning.
    So I think we are, the systems that we have got now are 
working, the systems that we are looking at in the future are 
probably what are going to be the game changers, and I think 
the game changer, if you will, for us is it is systems now that 
can be upgraded via software cost-effectively that pace the 
threat, and I think that is the most important thing for us.
    General Crosby. Ma'am, if I could add to that, General 
Robling is absolutely right, but the one that keeps me awake at 
night is that hostile fire, the simple systems, the RPGs 
[Rocket-Propelled Grenade] and the small arms. Those are the 
ones, the things he just talked about with the CIRCM and the 
ATIRCM [Advanced Threat Infrared Countermeasures] and the CMWS 
[Common Missile Warning System], those are okay, those do a 
great job, and those, as he said, we need to be upgrading 
because the threat is going to continue to evolve. But the one 
that makes us so vulnerable in the rotary wing because we are 
operating in such close proximity to those soldiers are those 
unsophisticated things like rocket-propelled grenades and small 
arms fire, so we are pursuing and I think the game changer is 
when we are going to be able to give the soldier and put on 
that aircraft something that identifies where that small arms 
is coming from, either--and we are looking at a couple of 
different technologies. One is an acoustic and one is a flash 
that will allow us to cue on it and, if nothing else, suppress 
it, which protects that air crew long enough to get out of that 
vulnerable spectrum.
    When we can do that and put something reliable in their 
hands, that I think will be the next step, augmented with what 
General Robling already talked about.
    Ms. Tsongas. And where do you think we are in that process?
    General Crosby. Very well along, ma'am. Frankly, we have 
got one that is a flash that we are demoing, I have got it on 
the Apaches that are going in on this next rotation, and if 
that proves out, then we will have something that I think 
really will help protect them. The acoustic one is not quite as 
mature but is not far behind it.
    Ms. Tsongas. Great. Thank you.
    General Kane. Congresswoman, the Air Force HH-60Gs and the 
CV-22s are some of the most survivable rotorcraft in DOD, from 
our perspective. Our efforts to focus on radio frequency and 
infrared countermeasures, chaff and flares, and maybe most 
importantly the integration piece of sensor and intelligence 
data in its presentation to the crew that allows it to do, to 
avoid the threats in the first place. So I think that is one of 
the most important pieces in terms of game-changing 
capabilities.
    In terms of both platforms, we continuously pursue 
upgrades. We are implementing a hostile fire indicator on the 
HH-60, and anytime we have an opportunity to work jointly, we 
participate with the other Services. A good example would be 
our LAIRCM [Large Aircraft Infrared Countermeasures] program, 
participating with the CIRCM in terms of lessons learned and 
technology transfer.
    Ms. Tsongas. Thank you all for your testimony.
    Mr. Bartlett. Thank you.
    Miss Roby.
    Mrs. Roby. Thank you, Mr. Chairman, and thank you all for 
being here today, and General Crosby, as you know, my district 
is the home of Fort Rucker, and the U.S. Army Aviation Center. 
And the issues that we are here talking about today are 
certainly vital to what is happening, not just in my district, 
but the Army's Program Executive Office for Aviation, located 
at Redstone.
    So thank you for being here.
    And my first question is regarding, General Crosby, mission 
planning, and I am aware that the helicopter incidents were the 
third leading cause of fatalities in Iraq, in the Iraq war. And 
in Afghanistan, in 2008, helicopter-related losses were the 
number one cause of deaths, and so weather-related issues, 
disorienting brownout conditions, engine failure, wire strikes, 
and flying into the terrain, of which the pilot was unaware, 
accounts for 80 percent of the losses. So what efforts is the 
Army and other Services, if anybody else wants to weigh in, 
executing to improve the mission planning performance for 
rotary wing operations?
    General Crosby. Thank you, ma'am.
    I appreciate the question. What you just described, is 
operations of what is causing those problems, is operating in a 
degraded visual environment; what we called DVE, and anything 
we can do to minimize that impact. I will tell you the 
challenge within the mission planning, there are some that will 
tell you that we should use DTED [Digital Terrain Elevation 
Data] data and GPS in order to do that--global positioning 
system, but their probable errors, combine those two together 
and you can be as much as 30 to 35 feet off. And when you are 
going into a landing zone with rocks; that is not good enough. 
So what we are pursuing is some other technologies. I will tell 
you that within the Army, the three platforms that we don't 
worry about now is the Block III Apache, the F model Chinook, 
and the M model Blackhawk because we have integrated in their 
digital cockpits a degraded visual environment capability. And 
you see that the incidents with those aircraft have come way, 
way down.
    So our focus right now is on those legacy platforms. The A 
model, L model Blackhawks, the Block II Apaches, the Kiowas, 
and the D model Chinooks. And each of those we are looking at, 
one of them is an autonomous landing system called--it is 
called HALS--that we are looking at embedding, and it is kind 
of a strap-on system that we put on the aircraft to automate 
that system to give them some cues. There is also a radar that 
we looked at that actually we can apply that looks through the 
sand and gives them the visual cues they need to land the 
aircraft. But the key of all of this, there was a great 
learning curve when we were first in. It is not all materiel; 
there is also training and experience, and how do you mitigate 
things like this and how do you prepare and set up and do roll-
on landing those kinds of things to mitigate. All of those 
together is what is going to get rid of this issue. It is a mix 
of the training, and of the degraded visual improvements.
    Mrs. Roby. Thank you so much, General.
    Does anyone else want to weigh in?
    General Robling. I will just pile on a little bit and just 
say that the Marine Corps is looking at the same things, and 
agree with General Crosby completely. It is not just the 
equipment. It is TTPs [Tactics, Techniques, and Procedures] and 
how you train, and how you figure those out. V-22 is a good 
example of how we have taken a system that really has been 
difficult in brownout-type conditions because of the size of 
those rotor blades on each side of the aircraft. And you go 
into a landing zone that is dusty; it is fully enveloped. So we 
have a GPS landing system in that aircraft you can, you know, 
walk on to your intended landing point, hover to about 50-foot 
and push a button and takes all the problems out, from the 
pilot's point of view, and bring it right down to safe landing.
    Other types of systems in the CH-53, not quite that 
sophisticated, but all that help with brownout and we look at, 
with all of the Services, on developing better systems in that 
direction.
    Mrs. Roby. Yes, sir.
    General Jones. Congresswoman, I will add to the comments of 
my colleagues here that the Air Force is the executive agent on 
a Joint Capabilities Technology Demonstration led by our Air 
Force research's lab out at Wright-Patterson Air Force Base, 
that is examining what we are calling a three-dimensional 
landing zone capability that will provide a high-resolution 
display integrated into the flight ware and display to the 
pilots in the aircraft that will allow us to better navigate 
through this degraded visual environment that we are discussing 
here. So along with the other Services, we are actively 
pursuing capabilities in that regard as well.
    Mrs. Roby. Thank you all so much, and again, I appreciate 
your time and being here and your service to our country.
    And Mr. Chairman, I yield back.
    Mr. Bartlett. Thank you very much.
    Of the 20 questions that we needed to ask in discharge of 
our oversight responsibilities, I am happy to report that 13 of 
them have been asked, which is why I ask my questions last, 
hoping they will all have been asked.
    Mr. Critz asked some questions about the C-47, I would just 
like to ask, General Crosby, one follow-up question, follow-up 
question relative to that. Can you speak to the costs incurred 
in the C-47 in the past for missions that should or could have 
been executed by platforms, such as the C-27J? Are you 
concerned that the burden on the Chinook and associated costs 
will be increased with the divestment of the C-27J?
    General Crosby. Sir, I cannot speak to you and tell you 
what the cost differential is on the 47 today. I am sure we 
could derive those numbers, but the mission, as I mentioned, is 
very hard to differentiate, when that aircraft, as you know, as 
a mission aircraft is doing air assaults, is doing resupply, so 
many things, but it is going to areas that a C-27 or a Sherpa 
couldn't get to anyway. So it is a cargo helicopter, and that 
is what we bought it for. The C-27, as I said, is there today 
and supporting us. I am confident that the leadership of the 
United States Army and the United States Air Force have come 
together, and the Air Force has said, Hey, this is our mission, 
and we will support you. And I am--I have no reason to doubt 
that think brothers in blue will be there when we need them.
    Mr. Bartlett. Is not the 47 one of the most expensive 
airplanes we have to fly per hour cost?
    General Crosby. It is expensive, sir. It drinks fuel. It is 
the biggest. It is the heaviest, but it is also, I think, very, 
very reliable, especially with the new F model, and we have 
driven down some of those costs. But yes, sir, it is probably 
the most expensive of the ones we have.
    Mr. Bartlett. So is it not true that every time we have to 
use the 47 because the C-27J or a similar airplane was not 
available, we have had considerably increased costs?
    General Crosby. Yes, sir, but I can't look you in the eye 
today and tell you what those numbers are and how many missions 
we have done. The C-27s have not been there the whole time, so 
we have been flying the Chinooks doing that mission, but since 
they have been there, they have been executing that time-
sensitive, critical-cargo mission for us. So that has 
eliminated some of that time, which that doesn't mean that 
aircraft is sitting. We have not seen a reduction in OPTEMPO by 
them doing that mission, and that aircraft is being used for 
something else.
    As you know, we are flying all of our aircraft at four to 
six times the normal OPTEMPO of what we normally experience. It 
is just a credit to our soldiers that they are able to maintain 
and sustain that kind of readiness.
    Mr. Bartlett. One of your fellow officers had noted that we 
are, and I quote him, flying the blades off the CH-47. Would 
you concur?
    General Crosby. Sir, I would say we are flying the blades 
off of all of them. I will tell you that the OPTEMPO plan for 
these aircraft in peace time was about 14.7 hours a month. We 
are flying in excess on the Kiowas over 100 hours a months. The 
Chinooks and Blackhawks are in the 70 to 80--60 to 80 range. So 
we are flying the blades out of all of them.
    I have some concerns about the sustainability and the long-
term strategy of all the fleet, which I have got some studies 
and some analysis looking at it. So I wouldn't say just the 47 
needs to be looked at. I think we need to be concerned about 
all of them.
    Mr. Bartlett. NASA is the National Aeronautical and Space 
Administration. It appears that most of their focus is on space 
rather than aeronautical. One of their original chartered 
responsibilities was R&D and rotorcraft. I am not aware that 
they are doing much there. Have I missed something?
    General Crosby. Sir, I will tell you that we do do some 
studies, and some analysis with them. It is not a great deal. 
It is--there is a team at Langley that we use that--in fact, it 
is an old comrade of mine from my early acquisition days--that 
we use and they participate in our Joint Vertical Lift 
Consortium, and help us--guide us to the future. But are they 
there present and every day in my engineering design? No, sir.
    Mr. Bartlett. I would like to ask a question of the Navy. 
As you look forward, which of your helicopters will you be 
relying on primarily for search and rescue?
    General Moran. Thank you, Mr. Chairman.
    I think we are going to see both the 60 Romeo and the 60 
Sierra in that role. Sierra is our primary aircraft in search 
and rescue at sea.
    Mr. Bartlett. These are 60s, correct?
    General Moran. Yes, sir, they are.
    Mr. Bartlett. All right. Is not that plane pretty limited 
in range and dwell time? Wouldn't that be much better done by a 
medium-lift helicopter with considerably more range and dwell 
time?
    General Moran. We think the Sierra has, when we are talking 
about search and rescue at sea, the Sierra is more than 
adequate for that mission. We certainly will be working with 
the future vertical lift as we look in the future to see if we 
can make gains in that area.
    Mr. Bartlett. As you look forward, which rotary-wing 
aircraft will you be using primarily for medical evacuation?
    General Moran. We continue to contribute with our HH-60s in 
Iraq and Afghanistan on medical evacs when called upon in 
support of SOF [Special Operations Forces].
    Mr. Bartlett. Is it not true that the 60 is pretty limiting 
in terms of range and size? It really doesn't even come close 
to providing enough room for an emergency--aerial emergency 
room, does it? Are we not using the 60 because we no longer 
have a medium-lift helicopter that we should be using for both 
of these missions?
    General Moran. From the Navy standpoint, Mr. Chairman, I 
would have to get back to you on why, but I think we will 
continue to look at that as we look at future capabilities and 
requirements for the medium lift.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Bartlett. Because both of these critical missions would 
be better accomplished with a larger aircraft, with more dwell 
time, with more size, with the longer--with the longer range.
    General Crosby, the Army Improved Turbine Engine Program 
envisions significantly more fuel-efficient and powerful engine 
for the Blackhawk and the Apache helicopter fleet as well as 
the next generation of joint multiple role helicopters. Can you 
please explain what measures the Army is taking in this 
acquisition strategy to ensure there is competition between the 
science and technology phase and into engineering, 
manufacturing, development.
    General Crosby. Yes, sir, I appreciate the question. That 
is a great capability, and I am here to tell you, let me go on 
record as stating that the demo thus far, is demonstrating 30 
percent increase in power, and 25 percent reduction in fuel. 
That is absolutely huge if you put that across the entire fleet 
in the Army, and in our brothers in the Navy, and Marine Corps, 
and the Air Force. Again, applicable to all of those fleets, 
and looking to our future to be the power plant for our future 
system. The acquisition strategy as we go forward and 
transition this from S&T, to a materiel acquisition program, is 
to encourage that competition in throughout the EMD 
[Engineering and Manufacturing Development] phase. That is part 
of our strategy. That is our plan. The only thing that will 
affect us of course, is the affordability. If we aren't able to 
garner sufficient funds to do, to maintain that through EMD, we 
would have to down select earlier. But our plan right now is to 
carry two vendors through the EMD phase.
    Mr. Bartlett. Mr. Reyes, do you have additional questions 
or comments?
    Mr. Reyes. Just a couple, but I will take them for the 
record.
    Mr. Bartlett. You will take them for the record.
    Okay, let me ask a question about the 53-K. Are we going to 
have a period of time where we will not have a heavy-lift 
helicopter available to us because of the timeline in 
developing this helicopter?
    General Robling. No, sir, 53-K right now is being developed 
for an IOC of 2019, and I believe right now we continue to keep 
CH-53 Echoes out to the end of that transition through fiscal 
year 2023.
    Mr. Bartlett. Okay, we decided that we can extend their 
useful life until the K is ready?
    General Robling. Yes, sir. There will be some risks there, 
as in all legacy aircraft. And we may right now that plan is 
for 8 squadrons of CH-53 Echoes at 16 aircraft per squadron, 
and because we no longer make those aircraft, as we lose them 
or the life of the aircraft goes down, what we will do is 
reduce the PAA [Primary Assigned Aircraft] in the squadrons, 
you know, down to 14 and then 12, but the answer to your 
question is, we will have a heavy-lift helicopter while that is 
being developed and transitioned.
    Mr. Bartlett. Okay, Mr. Reyes.
    Mr. Reyes. Yeah, I just have one quick one for you, General 
Crosby. The Army Improved Turbine Engine Program, which 
envisions a significantly more fuel-efficient and powerful 
engine for the Blackhawk and Apache helicopter fleet, as well 
as the next-generation joint multirole helicopter. Can you 
please explain what measures the Army is taking in the 
acquisition strategy to ensure that there is competition beyond 
the science and technology phase into the engineering and 
manufacturing development?
    General Crosby. Yes, sir. As again, what a great capability 
and in the tech base, it is demonstrating all of the 
improvements that we ask for. We are in the process right now, 
the project manager, of taking this from S&T and we go through 
what we call a materiel development decision, which lays out 
the acquisition strategy for that program. Our intention, our 
plan as we put that together is to carry two vendors through 
the EMD phase, to promote that competition beyond the S&T 
phase. The only thing that would restrict our ability to do 
that would be affordability, whether we can garner enough funds 
to do that.
    Mr. Reyes. Very good.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you very much.
    As we review your testimony and the question and answer 
period, I am sure that we will have additional questions for 
the record in discharge of our responsibilities for oversight. 
Thank you all so such for your service and your testimony.
    The subcommittee stands in adjournment.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]


=======================================================================



                            A P P E N D I X

                             March 27, 2012

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 27, 2012

=======================================================================


                  Statement of Hon. Roscoe G. Bartlett

       Chairman, House Committee on Tactical Air and Land Forces

                               Hearing on

         Fiscal Year 2013 DOD Rotorcraft Modernization Programs

                             March 27, 2012

    Good afternoon. Thank you for joining us.
    I would like to welcome our witnesses:

        <bullet> LLieutenant General Terry Robling, Deputy 
        Commandant for Aviation, U.S. Marine Corps;

        <bullet> LRear Admiral William Moran, Director, Air 
        Warfare Division, U.S. Navy;

        <bullet> LMr. Richard Gilpin, Deputy Assistant 
        Secretary of the Navy, Air Programs Office;

        <bullet> LMajor General William Crosby, Program 
        Executive Officer Aviation, U.S. Army;

        <bullet> LMajor General Noel Jones, Director, 
        Operational Capability Requirements, U.S. Air Force; 
        and

        <bullet> LMajor General Robert Kane, Director, Global 
        Reach Programs, U.S. Air Force.

    Thank you all for being here and for your service to our 
Nation.
    The use of helicopters has dramatically changed warfare 
doctrine from the time of their introduction during the Korean 
War, followed by development prior to Vietnam, use during 
Vietnam as a mobility platform, and current rotorcraft aviation 
operations. The helicopter is now a platform of maneuver, used 
for multimissions to include, resupply, medical evacuation, 
reconnaissance, air assault, and attack operations.
    The U.S. armed forces currently have approximately 7,000 
helicopters. Operations in Iraq and Afghanistan have put an 
even greater reliance on rotorcraft support as a result of 
Improvised Explosive Devices which have restricted ground 
movement. Based on current planned force structure reductions, 
the demand for rotorcraft capability will be even more critical 
in the future. Maintaining a healthy fleet of rotorcraft 
equates to the total force having the ability to cover the wide 
area battle space as referenced in the National Security 
Strategy.
    The purpose of this hearing is to get an update from each 
Service as to the condition of their respective current 
rotorcraft fleet and plans for future upgrades and 
modernization. In addition to various platform updates, the 
committee hopes to learn how the Services are utilizing 
Research and Development dollars to develop the next generation 
of rotary wing systems and subsystems. And finally, given the 
likelihood that there will be a continued or even greater 
dependence on rotorcraft in the future and the likelihood that 
rotorcraft will have to operate in greater threat environments 
than they currently do in Afghanistan, the committee expects to 
learn what each Service is doing in regard to aircraft 
survivability equipment and how they are working together to 
maximize resources.
    Again, I thank all of you for your service to our country 
and for being here. I look forward to your testimony.

                   Statement of Hon. Silvestre Reyes

    Ranking Member, House Committee on Tactical Air and Land Forces

                               Hearing on

         Fiscal Year 2013 DOD Rotorcraft Modernization Programs

                             March 27, 2012

    Today's hearing on DOD rotorcraft programs is the first 
Tactical Air and Land Forces hearing specifically covering 
these programs in many years. And, based on the budget request 
for fiscal year 2013, a hearing is definitely warranted for 
several reasons.
    One major issue is the cost of these rotorcraft programs, 
and how they impact other areas of military service budgets. 
The Army 2013 request, for example, includes $4.3 billion for 
procurement of upgraded and new rotorcraft, including 
Blackhawk, Chinook, Apache, Kiowa, and Lakota helicopters.
    By comparison, the Army's request for Weapons and Tracked 
Combat Vehicles in 2013 is only $1.5 billion--less than half as 
much.
    The Marine Corps request for rotorcraft programs totals 
$1.4 billion for just two major programs--new AH-1Z and UH-1Y 
helicopters and the CH-53K development program. If one adds the 
V-22 program to that amount, the total for the Marine Corps is 
more than $3.0 billion. This $3 billion total exceeds the 
Marine Corps' entire ground equipment procurement budget, which 
is about $2.5 billion.
    The other two Services have somewhat lower requests, with 
the Navy's request at $1.2 billion, and with the Air Force 
coming in around $500 million. If one totals up the Service 
requests for rotorcraft programs you get around $9.0 billion, 
with the vast majority of that funding being procurement of new 
or upgraded aircraft.
    So, it is clear that rotorcraft programs are a priority for 
all the Services, and in particular the Army and Marine Corps. 
Overall this strong investment in updating and replacing the 
Services' rotorcraft fleets is a good thing.
    However, one concern I have is how skewed this funding 
request in favor of production of new manned rotorcraft, as 
opposed to Research and Development of new rotorcraft for the 
future. This imbalance is, in part, the result of the 
termination of almost every new manned rotorcraft program DOD 
has tried to start in recent years. For example, the Army has 
little funding for R&D of new rotorcraft after the termination 
of the Comanche and Armed Reconnaissance Helicopter programs. 
The program intended to follow those two efforts remains mired 
in a seemingly endless analysis of alternatives, with no clear 
path ahead.
    Likewise, the Air Force canceled the ``CSAR-X'' combat 
rescue helicopter program in 2009, and this year canceled its 
program to replace its ageing U-1 Huey helicopters. Both have 
yet to restart.
    The Navy continues to struggle with defining requirements 
for the new Presidential Helicopter, almost three years after 
termination of the VH-71 program in 2009. Only the Marine Corps 
has a large scale, and so far successful, R&D program under way 
with the CH-53K heavy lift helicopter program.
    Another concern I have is the lack of commonality in some 
mission areas between the Services. The Army, Navy, and Air 
Force all fly variants of the UH-60 helicopter, which produces 
significant savings in both production and support costs. The 
Marine Corps, in contrast, is fielding rotorcraft unique in 
DOD, including the upgraded AH-1Z Cobra, the UH-1Y Huey, and 
the CH-53E Super Stallion. This does not mean that the Marine 
Corps programs should be stopped or reduced, but I believe it 
does raise the issue of how in the future--for the next 
generation of rotorcraft--DOD can better achieve truly joint 
solutions.
    Finally, with respect to unmanned rotorcraft, there are 
several promising research and development efforts under way, 
with the Navy and Marine Corps leading the way with the MQ-8 
and the Cargo Resupply Unmanned Aerial System. While funding 
for those efforts is relatively small compared to manned 
rotorcraft programs, they could be important waypoints toward 
future efforts.
    I look forward to the testimony from our panel.
    [GRAPHIC] [TIFF OMITTED] T3796.001
    
    [GRAPHIC] [TIFF OMITTED] T3796.002
    
    [GRAPHIC] [TIFF OMITTED] T3796.003
    
    [GRAPHIC] [TIFF OMITTED] T3796.004
    
    [GRAPHIC] [TIFF OMITTED] T3796.005
    
    [GRAPHIC] [TIFF OMITTED] T3796.006
    
    [GRAPHIC] [TIFF OMITTED] T3796.007
    
    [GRAPHIC] [TIFF OMITTED] T3796.008
    
    [GRAPHIC] [TIFF OMITTED] T3796.009
    
    [GRAPHIC] [TIFF OMITTED] T3796.010
    
    [GRAPHIC] [TIFF OMITTED] T3796.011
    
    [GRAPHIC] [TIFF OMITTED] T3796.012
    
    [GRAPHIC] [TIFF OMITTED] T3796.013
    
    [GRAPHIC] [TIFF OMITTED] T3796.014
    
    [GRAPHIC] [TIFF OMITTED] T3796.015
    
    [GRAPHIC] [TIFF OMITTED] T3796.016
    
    [GRAPHIC] [TIFF OMITTED] T3796.017
    
    [GRAPHIC] [TIFF OMITTED] T3796.018
    
    [GRAPHIC] [TIFF OMITTED] T3796.019
    
    [GRAPHIC] [TIFF OMITTED] T3796.020
    
    [GRAPHIC] [TIFF OMITTED] T3796.021
    
    [GRAPHIC] [TIFF OMITTED] T3796.022
    
    [GRAPHIC] [TIFF OMITTED] T3796.023
    
    [GRAPHIC] [TIFF OMITTED] T3796.024
    
    [GRAPHIC] [TIFF OMITTED] T3796.025
    
    [GRAPHIC] [TIFF OMITTED] T3796.026
    
    [GRAPHIC] [TIFF OMITTED] T3796.027
    
    [GRAPHIC] [TIFF OMITTED] T3796.028
    
    [GRAPHIC] [TIFF OMITTED] T3796.029
    
    [GRAPHIC] [TIFF OMITTED] T3796.030
    
    [GRAPHIC] [TIFF OMITTED] T3796.031
    
    [GRAPHIC] [TIFF OMITTED] T3796.032
    
    [GRAPHIC] [TIFF OMITTED] T3796.033
    
    [GRAPHIC] [TIFF OMITTED] T3796.034
    
    [GRAPHIC] [TIFF OMITTED] T3796.035
    
    [GRAPHIC] [TIFF OMITTED] T3796.036
    
    [GRAPHIC] [TIFF OMITTED] T3796.037
    
    [GRAPHIC] [TIFF OMITTED] T3796.038
    
    [GRAPHIC] [TIFF OMITTED] T3796.039
    
    [GRAPHIC] [TIFF OMITTED] T3796.040
    
    [GRAPHIC] [TIFF OMITTED] T3796.041
    
    [GRAPHIC] [TIFF OMITTED] T3796.042
    
    [GRAPHIC] [TIFF OMITTED] T3796.043
    
    [GRAPHIC] [TIFF OMITTED] T3796.044
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 27, 2012

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT

    Admiral Moran. [The information was not available at the time of 
printing.] [See page 22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 27, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. There continues to be a tremendous demand for 
rotorcraft support whether it's for troop transport, logistics, 
surveillance or attack missions. Given these platforms will likely be 
in even greater demand in the future and they will operate in 
potentially increased threat environments--please discuss how each of 
you are implementing lessons learned in terms of aircraft survivability 
equipment. Are you working together for a common approach or is there a 
necessity to come up with different solutions based on the mission 
profiles of the various platforms?
    General Robling. The Naval Aviation Enterprise and Marine Corps, 
both have formal processes in place to incorporate lessons learned into 
the development of future requirements. Where Marine aviation mission 
sets overlap with other Services we certainly attempt a common 
approach.
    RADM Moran has outlined the formal processes for capturing lessons 
learned for the Naval Aviation Enterprise, which encompasses Marine 
aviation. At the same time, the Marine Corps utilizes the Marine Corp 
Center for Lessons Learned (MCCLL) as our internal and formal process 
for the same historical and advancement documentation purposes for 
lessons learned.
    Examples of pursuing a common approach include:
    Using technology developed from the Air Force's Large Aircraft 
Infrared Red Countermeasure system (LAIRCM), the USN/USMC has developed 
the DON LAIRCM AAQ-24 program. This program includes next generation 
two-color Infrared (IR) sensors with an inexhaustible laser 
countermeasure (CM) system and is currently employed on our forward 
deployed CH-53E, MEU CH-46 fleet and future KC-130J aircraft leveraging 
the Air Force's LAIRCM integration design. In order to meet the current 
Hostile Fire Indication (HFI) requirement, we have invested funding 
into the DON LAIRCM program and developed the Advanced Threat Warner 
(ATW) system that includes two-color IR, laser, and HFI warning systems 
with planned installations in the CH-53E in FY13. Those assets will be 
re-capitalized and transferred to the CH-53K program.
    The Joint and Allied Threat Awareness System IR Missile Warning 
system (AAR-59) is being developed by the USN/USMC based on lessons 
learned and performance limitations discovered during the recent 
conflicts in Iraq and Afghanistan. The AAR-59 will provide advanced IR 
missile warning capability and aircrew warning of laser based systems 
and indications for small arms, rockets and unguided threats. The AAR-
59 has been designated the primary IR missile warning system solution 
for all new DOD aircraft and any planned ASE upgrades. It is designed 
to operate with all DOD aircraft and will interface with the Army led 
Common Infrared Countermeasures (CIRCM) and Air Force led DON Large 
Aircraft Infrared Countermeasures (LAIRCM) as part of an integrated 
response to attacking infrared missiles.
    The USN/USMC intends to procure the U.S. Army's CIRCM system that 
is under development for smaller assault helicopters. This joint 
program will ensure a common solution across all DOD's platforms. For 
our larger assault platforms, the USN/USMC have purchased the LAIRCM 
system.
    Our APR-39B(V)2 Radar Warning Receiver is undergoing a Class 1 
Engineering Change Proposal (ECP) to correct obsolescence and 
performance deficiencies. The ECP will re-designate the box to the APR-
39D(V)2 and provide an interface for AAR-59, CIRCM and ATW. The APR-
39D(V)2 will be used as the ASE suite controller on USMC aircraft which 
will allow the onboard ASE systems to be upgraded without having to 
break into the aircraft's Operational Flight Plan (OFP); realizing a 
huge cost savings and turn-around time for software upgrades. The APR-
39D(V)2 ECP will provide the capability for an Integrated ASE (IASE) 
capability to perform own-ship threat correlation and fusion and 
prepare threat data to be off-boarded for sharing throughout the 
digital battlefield. The APR-39D(V)2 system is currently undergoing 
evaluation by the Army and could become a common solution for radar 
warning across the Services.
    Mr. Bartlett. There appears to be a difference in opinion among the 
military services with regard to performance capabilities of UV-based 
warning systems versus IR-based systems. Does one type of system 
operate better than the other in terms of false positive alarms, range 
of detection, and detection fidelity, especially in a high clutter 
environment?
    General Robling. Among all current DOD users, there is no 
disagreement with regard to performance capabilities of UV-based 
warning systems versus IR-based systems. All DOD platforms are now, or 
will in the future transition from UV sensors to IR sensors in order to 
remain ahead of the advancements made by our enemies in both range and 
capabilities of the MANPAD threats. The current UV based missile 
warning systems (MWS) provide a higher number of false alarms in high 
clutter environments. False alarm rates are the biggest distraction to 
aircrew and the largest complaint we hear from our operators engaged in 
combat operations. UV sensors are also limited in range of detection 
and provide limited warning times due to its inability to declare at 
long ranges. UV sensors are also not capable of providing an accurate 
geo-location of the point of origin for exploitation. UV sensors 
performance significantly degrades in high clutter (industrial) 
environments. This is a critical lessons learned from combat operations 
in OEF/OIF and has been a driving requirement to switch to IR 
technology for increased survivability in high clutter areas.
    Although UV sensors can provide a limited hostile fire indication 
(HFI) capability it is rudimentary and is limited in its growth 
potential due to lack of UV signatures emitted by ballistic weapons 
(Small Arms through Heavy Machine Guns). Two-color IR sensors were 
developed to meet the continuing multispectral threats and provide 
longer range of detection and warning times. Two-color IR sensors also 
provide a multifunctional capability with HFI. Two color IR also lowers 
the false alarms rates and provides higher probability of detecting and 
discerning between threat types. The current path of combining the MWS, 
laser warning and the HFI capability will also reduce the weight 
imposed on rotary winged aircraft of the current stand alone systems.
    It has long been understood by the IRCM community that UV missile 
warning are significantly challenged by missiles launched from ranges 
near the threat kinematic limit and in industrial environment. 
Generalities that can be concluded when UV missile warning systems 
performance and IR missile warning system performance as follows:
    (1) IR Missile Warning Systems detect threats launched from longer 
ranges than UV Missile Warning Systems. (2) IR Missile Warning System 
performance does not degrade in high clutter areas like UV Missile 
Warning System do. (3) UV Missile Warning System performance degrades 
when going from a rural to an industrial environment (increased 
clutter). (4) The UV Missile Warning Systems have a higher false alarm 
rate than IR Missile Warning Systems.
    Mr. Bartlett. The committee is familiar with the findings from the 
OSD Helicopter Survivability Task Force which concluded that a large 
percentage of aircraft fatalities occur as a result of Degraded Visual 
Environment (DVE) which includes three categories--brownout, control 
flight into terrain (CFIT) and wire strikes. What are the Services 
doing to address DVE? How soon do you project to have capability 
fielded within each Service?
    General Robling. The Marine Corps is working on several programs, 
including Joint programs which seek to address DVE utilizing multiple 
alternatives and will then integrate these systems into the aircraft. 
The Marine Corps has already begun efforts to integrate day/night 
heads-up displays (HUD) and modern cockpit displays into helicopter 
cockpits. The Marine Corps has also begun to implement the Brown Out 
Symbology Set (BOSS), developed by the Army, in Marine helicopters. 
Further work continues with the Army to update and refine BOSS and to 
integrate the symbology with other aircraft sensors. To address 
brownout and wire-strikes, including uncharted wires, cables and 
obstacles, the Marine Corps requires a ``see-through'' DVE solution. 
Two technologies, a LASER based radar (LADAR) solution and a millimeter 
wave (MMW) radar solution, offer the required capability. The LADAR and 
MMW sensors are currently in the technology development phase and will 
begin testing in FY13 aboard the USMC designated lead test platform, 
the CH-53E. These technology demonstrations will facilitate assessment 
on the maturity of brownout solutions aboard a representative platform. 
By conducting an assessment based on technological maturity, platform 
integration complexity, projected weight, and cost the Marine Corps 
will develop a technological acquisition strategy for fielding a DVE 
capability to Marine rotary wing platforms. The Marine Corps is also 
monitoring a ``see-and-remember'' Pilot Vehicle Interface (PVI) 
technology which would render 3-D terrain images of the environment 
based on a pre-loaded terrain database. The intent is for the selected 
technology to reduce pilot workload during brownout landings, and 
ensure precision landing navigation of rotorcraft in DVE. Fielding will 
depend on USMC's best balance between requirements and fiscally 
constrained resources.
    The Marine Corps is also working on capability programs addressing 
CFIT prevention. For legacy aircraft, USMC is installing technologies 
such as Ground Proximity Warning System (GPWS) and Terrain Awareness 
Warning System (TAWS) to provide pilots with alerts for impending 
terrain collision. These technologies continue to advance with TAWS II, 
which will provide obstacle avoidance in conjunction with either an 
onboard obstacle database and/or data from an active sensor. TAWS II 
IOC is planned for FY17. Additionally, a POR for Midair Collision 
Avoidance Capability (MCAC) begins in FY14. This system will be based 
on Automatic Dependent Surveillance-Broadcast (ADS-B) In and Out and 
will use Government owned and developed software to prevent airborne 
collisions.
    Finally, the USMC has worked to implement non-material mitigation 
through improved Tactics, Techniques, and Procedures (TTPs) in 
conjunction with current technologies to minimize the risks of DVE.

    Mr. Bartlett. There continues to be a tremendous demand for 
rotorcraft support whether it's for troop transport, logistics, 
surveillance or attack missions. Given these platforms will likely be 
in even greater demand in the future and they will operate in 
potentially increased threat environments--please discuss how each of 
you are implementing lessons learned in terms of aircraft survivability 
equipment. Are you working together for a common approach or is there a 
necessity to come up with different solutions based on the mission 
profiles of the various platforms?
    Admiral Moran. Naval Aviation has a formal process in place to 
incorporate lessons learned into the development of future 
requirements. Where our mission sets overlap we work towards a common 
approach.
    Examples of this common approach include the Navy Enhanced Visual 
Acuity Program (EVA), a pre-Milestone A program with an Initial 
Operating Capability projected for FY18. The goal is to develop digital 
vision devices that improve visual acuity in low/no light and brown-out 
situations while maintaining the capability of the current analog night 
system. PMA-202 is coordinating with the Army and Air Force on program 
issues though the Aircrew Sub Systems Board (ASSB), which is a 
subcomponent of the Joint Aircrew Commonality Group (JACG), on this 
effort.
    The Joint and Allied Threat Awareness System IR Missile Warning 
system (AAR-59), being developed by the U.S. Navy/USMC based on lessons 
learned and performance limitations discovered during the recent 
conflicts in Iraq and Afghanistan. The AAR-59 will provide advanced 
infrared missile warning capability and aircrew warning of laser based 
systems and indications for small arms, rockets and unguided threats. 
The AAR-59 has been designated the primary IR missile warning system 
solution for all new DOD aircraft and any planned ASE upgrades. It is 
designed to operate with all DOD aircraft and will interface with the 
Army led Common Infrared Countermeasures (CIRCM) and Air Force led DON 
Large Aircraft Infrared Countermeasures (LAIRCM) as part of an 
integrated response to attacking infrared missiles.
    The USN/USMC intends to procure the U.S. Army's CIRCM system that 
is currently being developed for smaller assault helicopters. This 
joint program will ensure a common solution across all DOD's platforms. 
For our larger assault platforms, the USN/USMC has purchased the LAIRCM 
system that was developed and produced for the USAF to protect larger 
aircraft.
    Mr. Bartlett. There appears to be a difference in opinion among the 
military services with regard to performance capabilities of UV-based 
warning systems versus IR-based systems. Does one type of system 
operate better than the other in terms of false positive alarms, range 
of detection, and detection fidelity, especially in a high clutter 
environment?
    Admiral Moran. Naval Aviation has chosen to incorporate the AAR-59 
(Joint and Allied Threat Warning System) to address IR-based threats. 
The two-color IR technology provides the benefit of lower false alarm 
rate, longer range detection, and the ability to provide detection in 
high clutter environments.
    Mr. Bartlett. The committee is familiar with the findings from the 
OSD Helicopter Survivability Task Force which concluded that a large 
percentage of aircraft fatalities occur as a result of Degraded Visual 
Environment (DVE) which includes three categories--brownout, control 
flight into terrain (CFIT) and wire strikes. What are the Services 
doing to address DVE? How soon do you project to have capability 
fielded within each Service?
    Admiral Moran. Requirement Officers and Program Managers are 
working together to incorporate DVE software and an integrated 
Helicopter Obstacle/Weather/Terrain/Traffic Awareness Warning System 
(HTAWS) into fleet aircraft. No official timeline has been established.
    Mr. Bartlett. The Marine Corps is currently developing the CH-53K 
program in order to replace its 53E helicopters. And although the Navy 
is also flying 53E helicopters, the Navy does not have a requirement 
for the 53K. Clearly the MH-60 series rotorcraft is an excellent 
platform, but will it be able to carry the same loads from a Vertical 
Onboard Delivery (VOD) perspective than a 53E or 53K? Is there any 
possibility that in a few years the Navy might change their minds and 
validate a requirement for the 53K?
    Admiral Moran. The MH-60S currently fulfills the Navy requirement 
for Vertical Onboard Delivery despite not being able to carry the same 
loads as the MH-53E.

    Mr. Bartlett. There continues to be a tremendous demand for 
rotorcraft support whether it's for troop transport, logistics, 
surveillance or attack missions. Given these platforms will likely be 
in even greater demand in the future and they will operate in 
potentially increased threat environments--please discuss how each of 
you are implementing lessons learned in terms of aircraft survivability 
equipment. Are you working together for a common approach or is there a 
necessity to come up with different solutions based on the mission 
profiles of the various platforms?
    Mr. Gilpin. Naval Aviation has a formal process in place to 
incorporate lessons learned into the development of future 
requirements. Where our mission sets overlap we work towards a common 
approach.
    Examples of this common approach include the Navy Enhanced Visual 
Acuity Program (EVA), a pre-Milestone A program with an Initial 
Operating Capability projected for FY18. The goal is to develop digital 
vision devices that improve visual acuity in low/no light and brown-out 
situations while maintaining the capability of the current analog night 
system. PMA-202 is coordinating with the Army and Air Force on program 
issues though the Aircrew Sub Systems Board (ASSB), which is a 
subcomponent of the Joint Aircrew Commonality Group (JACG), on this 
effort.
    The Joint and Allied Threat Awareness System IR Missile Warning 
system (AAR-59), being developed by the U.S. Navy/USMC based on lessons 
learned and performance limitations discovered during the recent 
conflicts in Iraq and Afghanistan. The AAR-59 will provide advanced 
infrared missile warning capability and aircrew warning of laser based 
systems and indications for small arms, rockets and unguided threats. 
The AAR-59 has been designated the primary IR missile warning system 
solution for all new DOD aircraft and any planned ASE upgrades. It is 
designed to operate with all DOD aircraft and will interface with the 
Army led Common Infrared Countermeasures (CIRCM) and Air Force led DON 
Large Aircraft Infrared Countermeasures (LAIRCM) as part of an 
integrated response to attacking infrared missiles.
    The USN/USMC intends to procure the U.S. Army's CIRCM system that 
is currently being developed for smaller assault helicopters. This 
joint program will ensure a common solution across all DOD's platforms. 
For our larger assault platforms, the USN/USMC has purchased the LAIRCM 
system that was developed and produced for the USAF to protect larger 
aircraft.
    Mr. Bartlett. There appears to be a difference in opinion among the 
military services with regard to performance capabilities of UV-based 
warning systems versus IR-based systems. Does one type of system 
operate better than the other in terms of false positive alarms, range 
of detection, and detection fidelity, especially in a high clutter 
environment?
    Mr. Gilpin. Naval Aviation has chosen to incorporate the AAR-59 
(Joint and Allied Threat Warning System) to address IR-based threats. 
The two-color IR technology provides the benefit of lower false alarm 
rate, longer range detection, and the ability to provide detection in 
high clutter environments.
    Mr. Bartlett. The committee is familiar with the findings from the 
OSD Helicopter Survivability Task Force which concluded that a large 
percentage of aircraft fatalities occur as a result of Degraded Visual 
Environment (DVE) which includes three categories--brownout, control 
flight into terrain (CFIT) and wire strikes. What are the Services 
doing to address DVE? How soon do you project to have capability 
fielded within each Service?
    Mr. Gilpin. Requirement Officers and Program Managers are working 
together to incorporate DVE software and an integrated Helicopter 
Obstacle/Weather/Terrain/Traffic Awareness Warning System (HTAWS) into 
fleet aircraft. No official timeline has been established.

    Mr. Bartlett. There continues to be a tremendous demand for 
rotorcraft support whether it's for troop transport, logistics, 
surveillance or attack missions. Given these platforms will likely be 
in even greater demand in the future and they will operate in 
potentially increased threat environments--please discuss how each of 
you are implementing lessons learned in terms of aircraft survivability 
equipment. Are you working together for a common approach or is there a 
necessity to come up with different solutions based on the mission 
profiles of the various platforms?
    General Crosby. To obtain common approaches across the Services, 
the Navy, the Marine Corps, the Air Force, and the Army have 
established a Tri-Service Aircraft Survivability Equipment (ASE) 
working group that meets on a semi-annual basis. The Joint Capabilities 
Integration Development System scours Service requirements for 
opportunities to provide common solutions across the Services to meet 
identified capability gaps, especially those relating to ASE.
    Through the Army's ASE Program Office, the Army develops and 
procures common survivability equipment for platforms wherever possible 
to maximize capabilities through efficient use of research and 
procurement dollars. The tenets of this effort include: sensor and 
threat correlation; suite control; Modular Open System Approach (MOSA); 
minimizing size, weight and power requirements; and enabling increased 
situational understanding. The Common Missile Warning System (CMWS) is 
one such system that provides capabilities across the majority of Army 
platforms. Some platforms require mission specific solutions that do 
not necessarily benefit the Army's entire fleet, though. The 
requirements for a jammer and hostile fire detection are examples where 
specific platforms may have unique requirements. Knowing the geo-
location of the origin of small arms fire is an example of a 
requirement that may not be necessary on all platforms, but highly 
beneficial to the armed platforms.
    The Army is currently developing the Common Infrared Countermeasure 
(CIRCM), which essentially defeats infrared seeking missiles with a 
laser countermeasure. The CIRCM is being designed with a MOSA, so that 
it can be interoperable with both the Army's CMWS and the Navy's 
missile warning system, known as the Joint and Allied Threat Awareness 
System. The Navy plans to leverage the Army's investment for Infrared 
Countermeasures.
    The Army is also working closely with the Navy as they develop a 
next generation Radar Warning Receiver (RWR). The Navy has been able to 
meet most of the Army requirements with no additional cost to the 
receiver's development. To attempt to meet common inter-service 
solutions, the Army participates in the Navy's RWR preliminary design 
review.
    Mr. Bartlett. There appears to be a difference in opinion among the 
military services with regard to performance capabilities of UV-based 
warning systems versus IR-based systems. Does one type of system 
operate better than the other in terms of false positive alarms, range 
of detection, and detection fidelity, especially in a high clutter 
environment?
    General Crosby. Each sensor system, regardless of the spectrum it 
detects, has unique pros and cons. Primarily, the trade space regarding 
missile warning involves probability of detection, clutter rejection, 
cost and reliability. What works best for operating at 30,000 feet is 
not necessarily what works best at 1,000 feet and in situations used 
for Army aircraft. It is not so much a choice of ``good,'' ``better,'' 
or ``best'' between Ultraviolet (UV)-based sensors, Infrared (IR)-based 
sensors or hybrid sensor solutions, but what best mitigates the threat 
in the situations most common to each Service.
    Upon extensive analysis, the Army invested in UV-based sensor 
solutions nearly 10 years ago. This investment continues to meet Army 
requirements at an affordable cost. The primary advantages of the 
Army's UV-based systems versus acquiring a new IR based systems are: 
the Army's UV system meets all its operational requirements for 
probability of detection and reliability; UV is considered solar blind, 
thus reducing susceptibility to solar radiation and natural clutter 
sources; and un-cooled UV sensors are relatively low cost compared to 
cooled IR sensors. The Army's UV sensors' mean time between failures 
exceeds threshold and objective requirements, and further reduces total 
life cycle costs.
    The Army has invested in a UV-based system over the course of the 
past 10 years, and has accumulate over two million combat flight hours 
with the current UV-based system. The Army has improved the UV sensor 
performance for missile warning to where its false positive rate is 
lower than the Army's performance requirement, and its operation in 
high clutter environments is comparable to, or greater than, the 
performance of the currently available IR systems. In order to maximize 
the Army's significant investment in its UV-based missile warning 
system, the Army continues to seek opportunities to improve its suite 
of sensors' performance through incremental, economical improvements. 
Adding economical IR capability to existing survivability sensors is 
something the Army will continue to research.
    Mr. Bartlett. The committee is familiar with the findings from the 
OSD Helicopter Survivability Task Force which concluded that a large 
percentage of aircraft fatalities occur as a result of Degraded Visual 
Environment (DVE) which includes three categories--brownout, control 
flight into terrain (CFIT) and wire strikes. What are the Services 
doing to address DVE? How soon do you project to have capability 
fielded within each Service?
    General Crosby. Based upon the Joint Requirements Oversight Council 
validated Aircraft Survivability Initial Capabilities Document, the 
Army is establishing a formal DVE acquisition program to provide the 
Army aircrews with a capability to safely perform flight operations 
during conditions where man-made and natural atmospheric obscurants 
restrict or limit flight visibility.
    The Army is actively participating with Defense Advanced Research 
Project Agency, United States Air Force and the Navy on potential DVE 
technologies. The types of missions and tactics employed by each 
Service will dictate specific requirements for possible DVE materiel 
solutions.
    Ongoing Army Aviation modernization programs are integrating 
technologies such as digital maps and development of improved handling 
qualities in our modernized airframes. In addition, we are looking at 
focused solutions including active radar penetrating sensors to address 
DVE operations in the legacy platforms in support of current operations 
as well as a bridge to an end-state modernized fleet.
    In regard to when the capability will be fielded, the Army, in 
response to the Central Command (CENTCOM) DVE Operational Need 
Statement (ONS), is preparing for a limited fielding of an obscurant 
penetrating capability either in April or May of Second Quarter Fiscal 
Year 2014. In parallel with responding to the CENTCOM DVE ONS, the Army 
is moving forward with the DVE acquisition program, and expects a 
Materiel Development Decision in late 2012.
    Mr. Bartlett. The Army National Guard operates more than 800 Black 
Hawks, which represents about 45% of the Army's Black Hawk fleet. And 
as you know, the oldest UH-60A series Black Hawks, many more that 34 
years old are operated by Guard units. Until recently, the rate of 
Guard Black Hawk modernization was keeping pace with the rate of the 
Active Army. However, the FY13 UH-60M Black Hawk helicopter funding has 
been reduced by more than 17% over last year's budget down to a rate of 
59 aircraft per year, and it appears that the cuts have resulted in 
delayed fieldings to Army National Guard units. Can you explain what 
the impact of the FY13 budget request will have on the ability to 
modernize the National Guards Blackhawk fleet? What is the Army's plan 
to replace the older UH-60A platforms?
    General Crosby. The Army is addressing the Army National Guard ARNG 
modernization in three ways: procurement of new UH/HH-60Ms, cascading 
UH-60Ls model from the active forces to ARNG and, finally, A-L RECAP 
(converts UH-60A model aircraft to UH-60Ls) of ARNG aircraft. The 
recent Army decision to go to a nine-month deployment cycle 
necessitated all Fiscal Year 2012 (FY12) and FY13 UH-60M procurement 
funding go to modernizing two Active component Combat Aviation Brigades 
(CAB) thus delaying one ARNG Assault Helicopter Battalion (AHB) by two 
years. Fielding of new UH/HH-60Ms will begin in FY15 for this ARNG AHB 
and will be followed by an additional ARNG CAB. The ARNG is scheduled 
to receive 11 UH-60M and two HH-60M aircraft during the FY12-16 
timeframe. Six of the 11 UH-60Ms will be procured on the Multi-Year 
VIII contract. After the buildup of the 13th CAB in FY13 and FY14, all 
cascaded UH-60L model aircraft from the active forces will go to ARNG, 
resulting in greater retirements of UH-60As. Finally, the Army A-L 
program converts UH-60A model aircraft to UH-60Ls. This program began 
in FY08; the first ARNG conversion was done in FY11. The current plan 
is to continue the conversions at a rate of 38 per year through FY15.
    Mr. Bartlett. The Army National Guard UH-72A Lakota helicopters are 
performing well in support of security missions on our Southwest border 
where there is an ever-increasing threat of hostility. Are you aware if 
the National Guard is supportive of utilizing the UH-72A for other 
missions such as the Balkans in order to relieve pressure on high 
demand rotary wing platforms and save operational funding? Has the Army 
consulted with the National Guard to identify opportunities for 
expanding the mission envelope of the UH-72A? Are you aware if the Army 
is working cooperatively with industry to explore potential UH-72A 
survivability modifications, such as establishing a Cooperative 
Research & Development Agreement (CRADA)?
    General Crosby. The Army is aware that the National Guard Bureau 
(NGB) is interested in expanding the operational spectrum of the UH-72A 
Lakota. The Army has not consulted with the NGB to identify 
opportunities for expanding the operational envelope. The UH-72A Lakota 
was procured to accomplish missions in a permissive environment that 
were once accomplished with the legacy light utility UH-1 and OH-58 
fleets. The intent was for the UH-72A Lakota to accomplish these 
missions, freeing UH-60 Blackhawks to accomplish combat missions in 
uncertain or hostile environments. As a result, the Office of the 
Secretary of Defense for Operational Test and Evaluation Directorate 
concluded that the UH-72A Lakota was not required to undergo 
survivability testing and certification and was granted a waiver for 
this statutory requirement. The estimated cost of testing and modifying 
the Lakota to meet the survivability and certification requirements 
would be $793 million for the fleet. This cost includes: hardening 
navigation and communication systems against electromagnetic radiation, 
live fire test and evaluation, survivability testing, sustainment costs 
in non-permissive environments and dynamic component upgrades. The Army 
is not presently engaged with industry to establish a cooperative 
development program to develop survivability modifications for the UH-
72A Lakota.

    Mr. Bartlett. There continues to be a tremendous demand for 
rotorcraft support whether it's for troop transport, logistics, 
surveillance or attack missions. Given these platforms will likely be 
in even greater demand in the future and they will operate in 
potentially increased threat environments--please discuss how each of 
you are implementing lessons learned in terms of aircraft survivability 
equipment. Are you working together for a common approach or is there a 
necessity to come up with different solutions based on the mission 
profiles of the various platforms?
    General Kane. The Air Force participates in the Joint Helicopter 
Survivability Task Force, which provides a forum to discuss current and 
future threats, lessons learned, and available and future technologies. 
We continue to pursue defensive system upgrades and seek to capitalize 
on other service lessons learned. The Air Force leverages common 
solutions when able, but due to the high threat mission profiles the 
Air Force flies, independent solutions are sometimes required.
    Mr. Bartlett. There appears to be a difference in opinion among the 
military services with regard to performance capabilities of UV-based 
warning systems versus IR-based systems. Does one type of system 
operate better than the other in terms of false positive alarms, range 
of detection, and detection fidelity, especially in a high clutter 
environment?
    General Kane. UV and IR systems each have their strengths and 
weaknesses. The combined survivability systems (UV and IR) on Air Force 
platforms allow for a high level of survivability against a wide array 
of threats. The Air Force continues to balance current technology, 
capability, and affordability to achieve a high level of defensive 
capability. As new technology becomes available the Air Force evaluates 
the new systems for reliability, fidelity, and effectiveness.
    Mr. Bartlett. The committee is familiar with the findings from the 
OSD Helicopter Survivability Task Force which concluded that a large 
percentage of aircraft fatalities occur as a result of Degraded Visual 
Environment (DVE) which includes three categories--brownout, control 
flight into terrain (CFIT) and wire strikes. What are the Services 
doing to address DVE? How soon do you project to have capability 
fielded within each Service?
    General Kane. The Air Force is pursuing several capabilities to 
improve survivability in degraded visual environments (DVE) for our 
rotary wing assets. The CV-22 currently has a robust enroute DVE 
capability, which includes moving maps with digital terrain and 
elevation data (DTED) and a terrain following radar. In FY12, we start 
installing an improved hold and hover system and moving maps with DTED 
on the HH-60G. The improved hold and hover system provides a coupled 
approach to the ground capability which helps pilots maintain the 
landing flight path during brownout conditions. The moving maps with 
DTED provide visual and audible warning for terrain avoidance. Starting 
in FY13, we will install a commercial off-the-shelf based helicopter 
terrain awareness and warning system (HTAWS) on the UH-1N.
    Additionally, the Air Force is participating in the Three 
Dimensional-Landing Zone (3D-LZ) Joint Capability Technology 
Demonstration (JCTD). The 3D-LZ JCTD will demonstrate and assess 
technologies which display high-resolution three-dimensional imagery, 
integrated with flight symbology, to enable safe landing in DVE, 
provide cable warning and obstacle avoidance, and provide HTAWS 
functionality. Flight test is scheduled for FY14.

    Mr. Bartlett. There continues to be a tremendous demand for 
rotorcraft support whether it's for troop transport, logistics, 
surveillance or attack missions. Given these platforms will likely be 
in even greater demand in the future and they will operate in 
potentially increased threat environments--please discuss how each of 
you are implementing lessons learned in terms of aircraft survivability 
equipment. Are you working together for a common approach or is there a 
necessity to come up with different solutions based on the mission 
profiles of the various platforms?
    General Jones. The Air Force participates in the Joint Helicopter 
Survivability Task Force, which provides a forum to discuss current and 
future threats, lessons learned, and available and future technologies. 
We continue to pursue defensive system upgrades and seek to capitalize 
on other service lessons learned. The Air Force leverages common 
solutions when able, but due to the high threat mission profiles the 
Air Force flies, independent solutions are sometimes required.
    Mr. Bartlett. There appears to be a difference in opinion among the 
military services with regard to performance capabilities of UV-based 
warning systems versus IR-based systems. Does one type of system 
operate better than the other in terms of false positive alarms, range 
of detection, and detection fidelity, especially in a high clutter 
environment?
    General Jones. UV and IR systems each have their strengths and 
weaknesses. The combined survivability systems (UV and IR) on Air Force 
platforms allow for a high level of survivability against a wide array 
of threats. The Air Force continues to balance current technology, 
capability, and affordability to achieve a high level of defensive 
capability. As new technology becomes available the Air Force evaluates 
the new systems for reliability, fidelity, and effectiveness.
    Mr. Bartlett. The committee is familiar with the findings from the 
OSD Helicopter Survivability Task Force which concluded that a large 
percentage of aircraft fatalities occur as a result of Degraded Visual 
Environment (DVE) which includes three categories--brownout, control 
flight into terrain (CFIT) and wire strikes. What are the Services 
doing to address DVE? How soon do you project to have capability 
fielded within each Service?
    General Jones. The Air Force is pursuing several capabilities to 
improve survivability in degraded visual environments (DVE) for our 
rotary wing assets. The CV-22 currently has a robust enroute DVE 
capability, which includes moving maps with digital terrain and 
elevation data (DTED) and a terrain following radar. In FY12, we start 
installing an improved hold and hover system and moving maps with DTED 
on the HH-60G. The improved hold and hover system provides a coupled 
approach to the ground capability which helps pilots maintain the 
landing flight path during brownout conditions. The moving maps with 
DTED provide visual and audible warning for terrain avoidance. Starting 
in FY13, we will install a commercial off-the-shelf based helicopter 
terrain awareness and warning system (HTAWS) on the UH-1N.
    Additionally, the Air Force is participating in the Three 
Dimensional-Landing Zone (3D-LZ) Joint Capability Technology 
Demonstration (JCTD). The 3D-LZ JCTD will demonstrate and assess 
technologies which display high-resolution three-dimensional imagery, 
integrated with flight symbology, to enable safe landing in DVE, 
provide cable warning and obstacle avoidance, and provide HTAWS 
functionality. Flight test is scheduled for FY14.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. Two and a half years ago the Department of Defense 
Acquisition, Technology & Logistics leadership asked Industry to self 
form into the ``Vertical Lift Consortium'' (VLC). I understand the goal 
was to utilize the VLC to more effectively define requirements to 
streamline development of Vertical Lift technology and increase program 
success at lower risk and cost. In addition, the competitive forum 
would leverage the many domains that make up the Vertical Lift 
Community with emphasis on improving communication and teaming with 
non-traditional defense companies and small businesses. This DOD 
initiative embodies the objectives of the Weapons Systems Acquisition 
Reform Act (WSARA) by streamlining requirement and acquisition 
processes, proving out technologies early, embracing competition and 
more effectively investing precious Research & Development dollars. 
Based on the Department's experiences over the last 2\1/2\ years, what 
are the results of this partnership and how will the VLC be utilized 
for future vertical lift initiatives?
    General Robling. 1. What are the results of this partnership? It's 
important to note that more than 90 representatives of the vertical 
lift industry and academia self-formed into the Vertical Lift 
Consortium (VLC) in an effort to partner with the DOD. The most recent 
Executive Steering Group (ESG) held in February marked the ninth time 
VLC leadership attended and participated in Future Vertical Lift (FVL) 
strategic planning. This type of integrated collaboration offers 
opportunities to leverage both DOD and Industry resources through unity 
of effort.
    2. How will the VLC be utilized for future vertical lift 
initiatives? The Marine Corps remains an active participant within the 
FVL Integration Group, whose aim is to team with the VLC for strategic 
development and implementation of future generations of vertical lift 
capabilities. Our goal as a group is to ensure we design, develop, and 
deliver the next generation of vertical lift aircraft with advanced 
capabilities to the Joint Warfighter. This collaborative effort allows 
the VLC to provide the FVL ESG early insight into future capabilities 
that are in development by industry. Equally important, this team 
approach allows the ESG to provide Industry insight into the aircraft 
capabilities direction that DOD requires. Cooperation, collaboration, 
and teaming with the VLC allows DOD to accelerate and leverage the 
development of contributing technology and transition that technology 
into practical applications in an expedited and lower cost fashion.

    Mr. Wilson. Two and a half years ago the Department of Defense 
Acquisition, Technology & Logistics leadership asked Industry to self 
form into the ``Vertical Lift Consortium'' (VLC). I understand the goal 
was to utilize the VLC to more effectively define requirements to 
streamline development of Vertical Lift technology and increase program 
success at lower risk and cost. In addition, the competitive forum 
would leverage the many domains that make up the Vertical Lift 
Community with emphasis on improving communication and teaming with 
non-traditional defense companies and small businesses. This DOD 
initiative embodies the objectives of the Weapons Systems Acquisition 
Reform Act (WSARA) by streamlining requirement and acquisition 
processes, proving out technologies early, embracing competition and 
more effectively investing precious Research & Development dollars. 
Based on the Department's experiences over the last 2\1/2\ years, what 
are the results of this partnership and how will the VLC be utilized 
for future vertical lift initiatives?
    Admiral Moran. The VLC has had a positive impact on the Future 
Vertical Lift Initiative; the VLC has been involved and will continue 
to be involved to the maximum extent that DOD policy allows. The VLC 
has provided an opportunity to define and develop specific maritime 
requirements. The most significant impact the VLC will have on this 
OSD-led program will occur during the Material Solutions Analysis 
Phase; this scheduled to begin by the Army in late FY13.

    Mr. Wilson. Two and a half years ago the Department of Defense 
Acquisition, Technology & Logistics leadership asked Industry to self 
form into the ``Vertical Lift Consortium'' (VLC). I understand the goal 
was to utilize the VLC to more effectively define requirements to 
streamline development of Vertical Lift technology and increase program 
success at lower risk and cost. In addition, the competitive forum 
would leverage the many domains that make up the Vertical Lift 
Community with emphasis on improving communication and teaming with 
non-traditional defense companies and small businesses. This DOD 
initiative embodies the objectives of the Weapons Systems Acquisition 
Reform Act (WSARA) by streamlining requirement and acquisition 
processes, proving out technologies early, embracing competition and 
more effectively investing precious Research & Development dollars. 
Based on the Department's experiences over the last 2\1/2\ years, what 
are the results of this partnership and how will the VLC be utilized 
for future vertical lift initiatives?
    Mr. Gilpin. The VLC has had a positive impact on the Future 
Vertical Lift Initiative; the VLC has been involved and will continue 
to be involved to the maximum extent that DOD policy allows. The VLC 
has provided an opportunity to define and develop specific maritime 
requirements. The most significant impact the VLC will have on this 
OSD-led program will occur during the Material Solutions Analysis 
Phase; this scheduled to begin by the Army in late FY13.

    Mr. Wilson. Two and a half years ago the Department of Defense 
Acquisition, Technology & Logistics leadership asked Industry to self 
form into the ``Vertical Lift Consortium'' (VLC). I understand the goal 
was to utilize the VLC to more effectively define requirements to 
streamline development of Vertical Lift technology and increase program 
success at lower risk and cost. In addition, the competitive forum 
would leverage the many domains that make up the Vertical Lift 
Community with emphasis on improving communication and teaming with 
non-traditional defense companies and small businesses. This DOD 
initiative embodies the objectives of the Weapons Systems Acquisition 
Reform Act (WSARA) by streamlining requirement and acquisition 
processes, proving out technologies early, embracing competition and 
more effectively investing precious Research & Development dollars. 
Based on the Department's experiences over the last 2\1/2\ years, what 
are the results of this partnership and how will the VLC be utilized 
for future vertical lift initiatives?
    General Crosby. The Department of Defense (DOD) previously 
submitted a report to the congressional defense committees on the 
future development of vertical lift aircraft, as directed by the United 
States Congress in section 255 of the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009 (FY09), Public Law 110-417. That 
report included a preliminary technology roadmap. The Department is 
working to update the roadmap and to identify and address the critical 
enabling technologies for future program success; among those 
activities was the award of an Other Transaction Agreement (OTA) under 
the authority of section 845 of the National Defense Authorization Act 
for FY94, Public Law 103-160 (as amended) by the Army with the Vertical 
Lift Consortium (VLC) to develop technologies for vertical lift 
aircraft. Section 845 OTAs are tailored to non-traditional contractors, 
which was consistent with the Department's intent to stimulate 
increased contractor participation and new ideas.
    The VLC is a non-profit organization and membership is open to 
industry, including non-traditional contractors. Orders under the OTA 
are awarded to individual members of the VLC after publication of a 
request for proposals and using competitive methods for selection. 
While implementing the OTA, a vigorous and valuable dialogue with the 
collective organization that represents much of industry has provided 
positive feedback to the Army, the Department and the Services.
    While the Department's budget request for FY13 does not 
specifically identify funding activities under this OTA, the Department 
has allocated about $1.4 million from funding accounts in the current 
year for this purpose; contract orders are anticipated this Spring that 
will use the OTA as a transaction award instrument for the development 
of vertical lift technologies.

    Mr. Wilson. Two and a half years ago the Department of Defense 
Acquisition, Technology & Logistics leadership asked Industry to self 
form into the ``Vertical Lift Consortium'' (VLC). I understand the goal 
was to utilize the VLC to more effectively define requirements to 
streamline development of Vertical Lift technology and increase program 
success at lower risk and cost. In addition, the competitive forum 
would leverage the many domains that make up the Vertical Lift 
Community with emphasis on improving communication and teaming with 
non-traditional defense companies and small businesses. This DOD 
initiative embodies the objectives of the Weapons Systems Acquisition 
Reform Act (WSARA) by streamlining requirement and acquisition 
processes, proving out technologies early, embracing competition and 
more effectively investing precious Research & Development dollars. 
Based on the Department's experiences over the last 2\1/2\ years, what 
are the results of this partnership and how will the VLC be utilized 
for future vertical lift initiatives?
    General Kane. The Vertical Lift Consortium has been an active 
participant in the Future Vertical Lift Executive Steering Group. The 
Air Force, along with sister Services, through the Future Vertical Lift 
program, maintains partnerships and information sharing efforts to 
connect Science and Technology, Acquisitions, and Requirements. The Air 
Force continues to realize value in the partnering relationship 
developed through the VLC.

    Mr. Wilson. Two and a half years ago the Department of Defense 
Acquisition, Technology & Logistics leadership asked Industry to self 
form into the ``Vertical Lift Consortium'' (VLC). I understand the goal 
was to utilize the VLC to more effectively define requirements to 
streamline development of Vertical Lift technology and increase program 
success at lower risk and cost. In addition, the competitive forum 
would leverage the many domains that make up the Vertical Lift 
Community with emphasis on improving communication and teaming with 
non-traditional defense companies and small businesses. This DOD 
initiative embodies the objectives of the Weapons Systems Acquisition 
Reform Act (WSARA) by streamlining requirement and acquisition 
processes, proving out technologies early, embracing competition and 
more effectively investing precious Research & Development dollars. 
Based on the Department's experiences over the last 2\1/2\ years, what 
are the results of this partnership and how will the VLC be utilized 
for future vertical lift initiatives?
    General Jones. The Vertical Lift Consortium has been an active 
participant in the Future Vertical Lift Executive Steering Group. The 
Air Force, along with sister Services, through the Future Vertical Lift 
program, maintains partnerships and information sharing efforts to 
connect Science and Technology, Acquisitions, and Requirements. The Air 
Force continues to realize value in the partnering relationship 
developed through the VLC.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. As the Committee has reviewed the Fiscal Year 2013 
out-year procurement requests, we note that the Department of Defense 
has taken 24 V-22 aircraft out of the next five years--going from 122 
aircraft down to 98. Can you discuss the Department's plan on buying a 
full program of record on the V-22?
    General Robling. The decision to delay the purchase of 24 MV-22s 
until FY18 and FY19 was based on budget pressures currently being faced 
by the Department of the Navy. The Marine Corps remains fully committed 
to completing the Program of Record for a total of 360 aircraft and 
plans to submit budget requests accordingly.
    Mr. LoBiondo. What are the benefits of a multiyear contract for the 
V-22? What is the projected cost savings of this multiyear?
    General Robling. The proposed V-22 MYP II contract presents a 
substantial cost avoidance of greater than $800M in comparison to 
single year procurement. The benefits of this multiyear contract 
include:

    --  Stable and continuous production resulting in lower overhead 
rates.
    --  Enhanced workforce stability resulting in lower labor costs.
    --  Long Term Agreements (LTAs), Economic Order Quantity (EOQ) 
buys, and reduced setup costs resulting in lower material costs.
    --  Broadening the competitive base with opportunity for 
participation by suppliers not otherwise willing or able to compete for 
single year procurements.
    --  Meeting minimum-order quantities on many components.
    --  Minimizing parts obsolescence.
    --  Reducing the cost associated with annual proposal preparation 
and negotiation.
    --  Lowering the percentage of profit relative to total costs.

    Mr. LoBiondo. The Navy has stated that it intends to replace the 
aging C-2 Greyhound, the current Carrier OnBoard Delivery (COD) 
aircraft. As the Navy plans for its future Airborne Resupply/Logistics 
for Seabasing (AR/LSB) capability, does it not make sense to use an 
airplane that is currently in the DOD inventory that is much more 
efficient to use, such as the V-22 Osprey?
    Mr. Gilpin. The Navy is currently updating the AR/LSB Analysis of 
Alternatives which will evaluate the relative cost and technical 
advantages of various alternatives. The AoA Update is looking closely 
at the V-22. The AoA Update should be complete in the May timeframe.

    Mr. LoBiondo. What are the benefits of a multiyear contract for the 
CH-47? What is the projected cost savings of this multiyear?
    General Crosby. The Army defers to the U.S. Marine Corps as they 
are responsible for the fielding of the V-22.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. TURNER
    Mr. Turner. One of the major themes aside from the declining 
procurement rates of military equipment is the impact on the strategic 
industrial baseline. There have been numerous GAO studies which have 
concluded that the current defense industrial baseline is not only 
unbalanced but that the industrial baseline prior to the 2012 Budget 
Control Act was incapable of surging production rates in times of 
crisis. Additionally the U.S. has become increasingly dependent on 
foreign sources of supply. Limiting our discussion to the H-60 Black 
Hawk helicopter for the Army National Guard, not only have procurement 
rates dropped 17% but the latest estimates now indicate that the last 
Army National Guard UH-60A will not be retired until 2027 which will 
make the helicopter more than 37 years old. Military weapon systems 
have become so technologically complex that even with an industrial 
baseline available, expediting production is extremely difficult. For 
example on the UH-60 and MH-60 there are five critical components 
dealing with the rotor which is made by only one manufacturer; Main 
Rotor Spherical Bearing, Tail Rotor Pivot Bearing, Main Rotor Pitch 
Link Rod Ends, Tail Rotor Pitch Link Rod Ends and the Main Rotor CF 
Bearing.
    How much consideration have you given toward the retainment of the 
Industrial Baseline? What steps have you taken or currently taking to 
ensure an available supply of these critical components? Have the 
Services accomplished any strategic thinking on a continued 
consolidation of the supply market and the eventuality that we are 
reliant on overseas replacement components? Is this an issue which has 
been conveyed to OSD? If so, what is their response?
    General Kane. The Air Force depends on a reliable, responsive 
industrial base to produce and sustain the capabilities needed to fly, 
fight and win across the air, space and cyber domains. There is 
emerging across the Department of Defense a shared sense of concern 
over the impact of the forthcoming reduced demand signal on the 
domestic industrial base, particularly at the lower tiers. To identify 
these risks and, where appropriate, develop mitigation actions, the 
Service staffs are working closely with each other and with their 
counterparts on the OSD staff. Some of these interactions leverage 
long-established groups such as the Defense Acquisition Board; in other 
areas, OSD has helped to facilitate new discussions among the 
components on shared concerns, such as energetic materials. Across the 
Air Force, our senior leaders fully recognize the strategic challenge 
of sustaining critical domestic industrial base capabilities during a 
period of fiscal austerity. Each day, our managers within the 
acquisition and sustainment communities successfully respond to these 
types of challenges ensuring the readiness of the Air Force. The Air 
Force will continue to work closely with the other Services and with 
OSD on all levels to sustain our capability to fly, fight and win.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. COOPER
    Mr. Cooper. The Army National Guard operates more than 800 Black 
Hawks, which represents about 45% of the Army's Black Hawk fleet. And 
as you know, the oldest UH-60A series Black Hawks, many more that 34 
years old are operated by Guard units. Until recently, the rate of 
Guard Black Hawk modernization was keeping pace with the rate of the 
Active Army. However, the FY13 UH-60M Black Hawk helicopter funding has 
been reduced by more than 17% over last year's budget down to a rate of 
59 aircraft per year, and it appears that the cuts have resulted in 
delayed fieldings to Army National Guard units.
    What is the Army's plan to replace the older UH-60A platforms? What 
is the timeline for when all UH60-A platforms are upgraded?
    General Crosby. The Army is addressing the Army National Guard 
(ARNG) modernization in three ways: procurement of new UH/HH-60Ms, 
cascading UH-60Ls model from the active forces to ARNG, and, A-L RECAP 
of ARNG aircraft. The recent Army decision to go to a nine month 
deployment cycle necessitated all Fiscal Year 2012 (FY12) and FY13 UH-
60M procurement funding go to modernizing two Active component Combat 
Aviation Brigades (CAB), thus delaying one ARNG Assault Helicopter 
Battalion (AHB) by two years. Fielding of new UH/HH-60Ms will begin in 
FY15 for this ARNG AHB and will be followed by an additional ARNG CAB. 
The ARNG is scheduled to receive 11 UH-60M and two HH-60M aircraft 
during the FY12-16 timeframe, six of the 11 UH-60Ms will be procured on 
the Multi-Year VIII contract. After the buildup of the 13th CAB in FY13 
and FY14, all cascaded UH-60L model aircraft from the active forces 
will go to ARNG resulting in greater retirements of UH-60As. Finally, 
the Army A-L program converts UH-60A model aircraft to UH-60Ls. This 
program began in FY08; the first ARNG conversion was done in FY11. The 
current plan is to continue the conversions at a rate of 38 per year 
through FY15.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. Air Combat Command (ACC) is responsible for training 
and equipping rescue forces. The command announced last month that they 
are considering acquiring used helicopters from the United States Army 
in lieu of purchasing new, replacement HH-60M aircraft. There has been 
no public release announcing a change to the Operational Loss 
Replacement program and it is not known how the negotiations with the 
Army are proceeding. The Army is currently modernizing its fleet with 
HH-60M aircraft.
    Has the Air Force adopted a new acquisition strategy in lieu of 
purchasing new helicopters? If so, how does the new strategy improve 
upon the command's ability to execute the rescue mission? What are the 
risks associated with the new strategy?
    General Jones. The HH-60G Operational Loss Replacement program 
delivered the first two minimally modified UH-60M aircraft in September 
2011, with the third scheduled for May 2012. Aircraft #4 will be 
modified to an HH-60G like configuration. The Air Force is considering 
multiple options on how best to modify H-60 aircraft to get the most 
capability to the warfighter in the shortest time, including modifying 
the UH-60M or low hour UH-60Ls from the Army. The decision is currently 
in its final stages and modifications will begin in late 2012 with 
delivery beginning late 2013 and completing in 2015.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROONEY
    Mr. Rooney. I have been told that the CH-53K program is only 
rotorcraft program currently in development for any of the Services and 
that it will deliver three times the lift capability, provide fly-by-
wire technology, incorporate the latest survivability techniques 
including a composite airframe l. Given the difficulties you have had 
fielding a new amphibious vehicle, I assume this program becomes even 
more important for ship to shore operations? What can we do to help you 
accelerate or at least highlight the importance of this asset?
    General Robling. The CH-53K Program is the only ACAT 1D 
developmental rotorcraft program within DOD and is currently under a 
Engineering and Manufacturing Demonstration (EMD) contract.
    The CH-53K is a new build helicopter that evolves the CH-53E design 
to improve operational capability, reliability, maintainability, 
survivability, and cost of ownership. The CH-53K is a critical enabler 
of the MEB 2015 concept as it is the only shipboard-compatible 
rotorcraft capable of lifting 100% of the air-transportable equipment 
in the Marine Corps' ``Middle Weight Force'' vertical MAGTF in support 
of current and future warfighting concepts. The CH-53K is designed to 
transport 27,000 lbs of external cargo under Navy high/hot conditions 
out to 110nm (nearly three times the CH-53E), vastly improving Ship-to-
Objective Maneuver (STOM).
    The CH-53K Program has met all Obligation & Expenditures (O&E) 
benchmarks since FY08, is on schedule, stands on a solid technical 
foundation with critical technologies maturing to plan, and continues 
to meet or exceed all Key Performance Parameters (KPPs).
    Accelerating CH-53K:
    Current year: An additional $32.1M of R&D funds in FY-13 would 
result in an acceleration of IOC from Q1 FY-19 to Q4 FY-18 enabling 
more efficient program execution and reduce out-year R&D funding 
requirements.
    Furthermore, additional APN1 funding in FY16-18 could increase the 
CH-53K procurement ramp, by leveraging Sikorsky's additional production 
capacity, thereby accelerating delivery of CH-53K to the Fleet Marine 
Forces.

    Mr. Rooney. With the capabilities that the CH-53K helicopter will 
bring to the Marine Corps, and their need for this type of heavy lift, 
this program is a no-brainer. What I want to understand, however, is 
what is the Navy's plan for heavy lift and why are you not playing in 
this program? I understand that the Navy's current fleet of vertical 
lift platforms cannot even transport the F135 engine from ship to ship. 
Is this correct?
    Mr. Gilpin. The MH-60S currently fulfills the Navy requirement for 
vertical lift. Regarding transport of the JSF engine, the JSF whole 
engine and the engine shipping system (ESS) was not designed for 
VERTREP. The MH-53E, CH-53E and MV-22 can externally transport the F135 
engine modules.

    Mr. Rooney. I understand that the Army will soon host a ``fly-off'' 
for potential candidates in the Armed Aerial Scout program which is 
intended to replace the Kiowa Warrior. I understand the need to replace 
these aging venerable aircraft and I understand the long sordid history 
of attempting to do so from Comanche to the Armed Reconnaissance 
Helicopter. My worry, however, is that by hosting this ``fly-off'' the 
Army is considering taking the easy way out of a troubled history and 
settling for a platform that brings no new capability to the fight. The 
Services have long neglected funding for rotorcraft R&D but there is 
new technology out there that could be game-changing. If one 
consideration for the Army is to once again, SLEP the Kiowa for a while 
longer in order to bring on this new technology out there, then I would 
advocate you take such a path. Why would the Army even consider current 
aircraft bringing no new capability to the warfighter?
    General Crosby. The Army is conducting market research by releasing 
a Request for Information, conducting discussions with industry, and 
giving industry an opportunity to demonstrate potential solutions to 
help determine what technologies are available from industry that may 
contribute to a material solution option. The Army will not compare 
individual results, but rather assess their capability against the 
capability gaps identified in the initial capabilities document. The 
end state is to identify an affordable, achievable, moderate risk 
material solution option based on the current state of technology in 
the market. If the results of the voluntary flight demonstration(s) 
determine that a materiel solution option that delivers greater 
capability is not affordable, then the Army will consider pursuing a 
Service Life Extension Program (SLEP) of the Kiowa Warrior fleet. 
Affordability will be a major factor in the capabilities determination 
decision at the end of the market research effort.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. In regard to mission planning during the hearing we 
heard about what the military is doing to deal with Degraded Visual 
Environment (DVE). I would like to hear more about what the Army and 
other Services are doing to improve mission planning for Rotary Wing 
operation. I've been briefed by a constituent that is developing a tool 
that uses terrain and soil features, environmental forecasts, and 
aircraft performance attributes to provide qualitative assessments of 
landing zones and the operational environment. Since mission planning 
is the initial step to reducing risk, would having the capability to 
identify more favorable areas prior to actual execution that decrease 
the impact of a DVE prove beneficial? In the same context, would the 
capability to view the overall impacts of the environment on rotary 
performance with respect to power management (the leading cause of 
aircraft mishap) assist in the mission planning and decisionmaking 
process and create greater situational awareness prior to crews 
encountering these conditions?
    General Robling. Landing Zone (LZ) selection during the mission 
planning process is influenced by numerous factors. Intelligence 
imagery analysts provide a list of LZs, the Ground Combat Element and 
Air Combat Element (GCE/ACE) planners select the best zones to support 
the mission, and Meteorology and Oceanographic (METOC) support provides 
a forecast of the environmental conditions. While this planning 
provides an accurate prediction of suitable LZ's, it does not account 
for real-time changes in environmental conditions that can contribute 
to DVE.
    The calculation of power requirements are a critical part of 
mission planning. During mission planning, power requirements are 
determined by what type of approach/landing may be required, obstacles 
surrounding the zone, zone constitution, wave off lanes, possible 
threat, and environmental conditions.
    In both instances, having a planning tool for DVE and power 
management would contribute to safety and situational awareness. The 
tools would compliment rotary wing requirements for an in-flight ``see-
through'' capability designed to mitigate the effects of a DVE 
(brownout, white-out (snow), fog, rain, smoke, night, etc.).

    Mrs. Roby. It is my understanding that the Navy has chosen to defer 
funding for five MH-60R helicopters, cutting the longtime steady 
procurement rate of 24 per year to 19 per year for FY13. In addition, I 
understand the out-year procurement goes from 19 aircraft in FY14 to 38 
aircraft in FY16. I can tell you that from a contractor perspective, 
these wild swings in procurement rates are extremely difficult to 
manage in terms of suppliers and workforce. While I understand it might 
make sense for the Navy to do this from a budget perspective, was there 
ever any thought to what it might do to the businesses, particularly 
the small businesses, who might have to handle this as well as the 
impact it will have on Navy's future budget?
    Admiral Moran. Budgetary constraints and considerations drove the 
reductions in MH-60R procurement totals in FY 2013 and 2014. The 
Foreign Military Sale of 24 MH-60Rs to Australia in conjunction with 
the Navy's MH-60R procurement schedule is working to level industry 
production schedules. The increase in MH-60R procurement in FY 2016 is 
designed to complete the program of record (POR) purchase on timeline 
in order to support Fleet Squadrons' transitions, stand-ups, and 
operations. The increase in FY 2016 procurement is tempered for 
industry by an aircraft delivery schedule phased through the beginning 
of FY 2019. The Navy expects the signing of the multiyear contracts to 
procure the remaining MH-60R POR to realize considerable cost savings, 
positively impacting future budgets.
    Mrs. Roby. I understand that the Navy is within a few years of 
ending production of both the MH-60S and MH-60R. I am also aware that 
the Naval Aviation Requirements Group has identified a number of 
Seahawk airframe upgrades that are currently not funded in the out-
years but are critical investments in the airframe as performance 
requirements and weight grows on the aircraft. The MH-60S and MH-60R 
have been in the Fleet since 2001 and 2006 respectively and are 
expected to remain in service as critical Battle Group capability until 
at least 2030. Investing in keeping them current and relevant is 
important to future operational effectiveness and success. Could you 
tell me what the Navy's plan is with regard to these key improvements 
as well as others not yet identified?
    Admiral Moran. The MH-60R and MH-60S helicopters are both 
multimission helicopters with steadily increasing capabilities, which 
tends to increase the gross weight of the airframe. As the helos become 
heavier, their ability to perform in high/hot environments degrades. 
There are often operational risk mitigators that can be implemented to 
enable mission completion (reduce fuel loading, reduced ammunition, 
reduced passengers), but sometimes there are not, and airframe upgrades 
(engines and rotor blades) are the most effective way to maintain 
acceptable performance margins in challenging environmental conditions 
at high gross weights.
    The MH-60 program office, PMA-299, has conducted non-recurring 
engineering to develop incremental engine performance and reliability 
upgrades that ``buy-back'' the critical performance margin. As the 
aircraft continue to age, they will receive the necessary performance 
upgrades to enable mission success.
    Mrs. Roby. I am also curious on what would be different in FY16 
that would allow the Navy to handle the procurement of 38 aircraft or, 
will this number come down in next year's budget submit causing a break 
in the Navy's portion of the multiyear contract? Would it not be easier 
to go back to the steady-state of 24 aircraft per year?
    Admiral Moran. In FY 2015 the combined purchase of MH-60R and MH-
60S totals 39 aircraft. In FY 2016, the first year following the 
completion of MH-60S purchases, the Navy plans to procure 38 MH-60R 
aircraft in order to sustain overall H-60 procurement rates and to 
complete the program of record (POR) purchases on a timeline required 
to support Fleet MH-60R Squadron transitions, stand-ups, and 
operations. No change in procurement and POR numbers is planned which 
would break the Navy's multiyear contracts. A return to a steady-state 
procurement rate of 24 aircraft per year would not deliver MH-60R 
aircraft at a rate able to support the current transition, stand-up, 
and operations timeline.
    Mrs. Roby. In regard to mission planning during the hearing we 
heard about what the military is doing to deal with Degraded Visual 
Environment (DVE). I would like to hear more about what the Army and 
other Services are doing to improve mission planning for Rotary Wing 
operation. I've been briefed by a constituent that is developing a tool 
that uses terrain and soil features, environmental forecasts, and 
aircraft performance attributes to provide qualitative assessments of 
landing zones and the operational environment. Since mission planning 
is the initial step to reducing risk, would having the capability to 
identify more favorable areas prior to actual execution that decrease 
the impact of a DVE prove beneficial? In the same context, would the 
capability to view the overall impacts of the environment on rotary 
performance with respect to power management (the leading cause of 
aircraft mishap) assist in the mission planning and decisionmaking 
process and create greater situational awareness prior to crews 
encountering these conditions?
    Admiral Moran. The ability to identify more favorable landing areas 
during mission planning would be beneficial; however, the majority of 
navy helicopter operations are overwater. The USN and USMC are 
investing in the Joint Mission Planning System (JMPS) to provide more 
efficient mission planning.

    Mrs. Roby. It is my understanding that the Navy has chosen to defer 
funding for five MH-60R helicopters, cutting the longtime steady 
procurement rate of 24 per year to 19 per year for FY13. In addition, I 
understand the out-year procurement goes from 19 aircraft in FY14 to 38 
aircraft in FY16. I can tell you that from a contractor perspective, 
these wild swings in procurement rates are extremely difficult to 
manage in terms of suppliers and workforce. While I understand it might 
make sense for the Navy to do this from a budget perspective, was there 
ever any thought to what it might do to the businesses, particularly 
the small businesses, who might have to handle this as well as the 
impact it will have on Navy's future budget?
    Mr. Gilpin. Budgetary constraints and considerations drove the 
reductions in MH-60R procurement totals in FY 2013 and 2014. The 
Foreign Military Sale of 24 MH-60Rs to Australia in conjunction with 
the Navy's MH-60R procurement schedule is working to level industry 
production schedules. The increase in MH-60R procurement in FY 2016 is 
designed to complete the program of record (POR) purchase on timeline 
in order to support Fleet Squadrons' transitions, stand-ups, and 
operations. The increase in FY 2016 procurement is tempered for 
industry by an aircraft delivery schedule phased through the beginning 
of FY 2019. The Navy expects the signing of the multiyear contracts to 
procure the remaining MH-60R POR to realize considerable cost savings, 
positively impacting future budgets.
    Mrs. Roby. I understand that the Navy is within a few years of 
ending production of both the MH-60S and MH-60R. I am also aware that 
the Naval Aviation Requirements Group has identified a number of 
Seahawk airframe upgrades that are currently not funded in the out-
years but are critical investments in the airframe as performance 
requirements and weight grows on the aircraft. The MH-60S and MH-60R 
have been in the Fleet since 2001 and 2006 respectively and are 
expected to remain in service as critical Battle Group capability until 
at least 2030. Investing in keeping them current and relevant is 
important to future operational effectiveness and success. Could you 
tell me what the Navy's plan is with regard to these key improvements 
as well as others not yet identified?
    Mr. Gilpin. The MH-60R and MH-60S helicopters are both multimission 
helicopters with steadily increasing capabilities, which tends to 
increase the gross weight of the airframe. As the helos become heavier, 
their ability to perform in high/hot environments degrades. There are 
often operational risk mitigators that can be implemented to enable 
mission completion (reduce fuel loading, reduced ammunition, reduced 
passengers), but sometimes there are not, and airframe upgrades 
(engines and rotor blades) are the most effective way to maintain 
acceptable performance margins in challenging environmental conditions 
at high gross weights.
    The MH-60 program office, PMA-299, has conducted non-recurring 
engineering to develop incremental engine performance and reliability 
upgrades that ``buy-back'' the critical performance margin. As the 
aircraft continue to age, they will receive the necessary performance 
upgrades to enable mission success.
    Mrs. Roby. I am also curious on what would be different in FY16 
that would allow the Navy to handle the procurement of 38 aircraft or, 
will this number come down in next year's budget submit causing a break 
in the Navy's portion of the multiyear contract? Would it not be easier 
to go back to the steady-state of 24 aircraft per year?
    Mr. Gilpin. In FY 2015 the combined purchase of MH-60R and MH-60S 
totals 39 aircraft. In FY 2016, the first year following the completion 
of MH-60S purchases, the Navy plans to procure 38 MH-60R aircraft in 
order to sustain overall H-60 procurement rates and to complete the 
program of record (POR) purchases on a timeline required to support 
Fleet MH-60R Squadron transitions, stand-ups, and operations. No change 
in procurement and POR numbers is planned which would break the Navy's 
multiyear contracts. A return to a steady-state procurement rate of 24 
aircraft per year would not deliver MH-60R aircraft at a rate able to 
support the current transition, stand-up, and operations timeline.
    Mrs. Roby. In regard to mission planning during the hearing we 
heard about what the military is doing to deal with Degraded Visual 
Environment (DVE). I would like to hear more about what the Army and 
other Services are doing to improve mission planning for Rotary Wing 
operation. I've been briefed by a constituent that is developing a tool 
that uses terrain and soil features, environmental forecasts, and 
aircraft performance attributes to provide qualitative assessments of 
landing zones and the operational environment. Since mission planning 
is the initial step to reducing risk, would having the capability to 
identify more favorable areas prior to actual execution that decrease 
the impact of a DVE prove beneficial? In the same context, would the 
capability to view the overall impacts of the environment on rotary 
performance with respect to power management (the leading cause of 
aircraft mishap) assist in the mission planning and decisionmaking 
process and create greater situational awareness prior to crews 
encountering these conditions?
    Mr. Gilpin. The ability to identify more favorable landing areas 
during mission planning would be beneficial; however, the majority of 
Navy helicopter operations are overwater. The USN and USMC are 
investing in the Joint Mission Planning System (JMPS) to provide more 
efficient mission planning.

    Mrs. Roby. What is the projected weight and cost impact of the Army 
efforts to correct the ``operationally unsuitable'' (Army quote) H-60M 
crashworthy troop seat? What are the Army's alternate plans if the seat 
cannot be corrected within reasonable weight and cost thresholds 
(relative to the existing acceptable seat used in the legacy H-60A/Ls)? 
Why hasn't the Army actively evaluated other solutions through their 
Continuous Technology Refreshment (CTR) program that may provide 
significant reductions in weight and cost?
    General Crosby. Planned improvements to the Troop seat include 
contoured seat pan with pad, reduced side webbing to improve passenger 
egress and ingress times, and changes to the attaching mounts to make 
the seat easier to install. The targeted weight increase associated 
with these changes is one pound or less per seat. The projected cost of 
these changes has not been negotiated, but may add approximately $500 
to the cost of each seat. We have every reason to believe that the 
seats can be improved to the satisfaction of the user. If we get to a 
point where the seat cannot meet user expectations, use of the legacy 
seats or a new program start will be investigated. Note that the legacy 
A-L seat was qualified to a lower G rating than the existing M model 
seat. A Continuous Technology Refreshment program for hardware has only 
recently been awarded. While weight and cost are important, they are 
not the only requirements that must be evaluated when considering seat 
designs for the H-60. The Program Management Office is not aware of an 
existing seat design that better meets our current specification 
requirements.
    Mrs. Roby. Boeing recently down-selected several organizations' 
seats for the Army's effort to implement crashworthy troop seating on 
the H-47F. What are the weights and costs of these contenders? And, how 
do they compare to the 10-pound threshold and $2,300 unit cost of a 
seat being evaluated by the Office of the Secretary of Defense?
    General Crosby. The notional crashworthy troop seat evaluated by 
the Office of the Secretary of Defense was a representative seat 
employed to support their analysis of potential passenger safety 
improvements. The seat is not compatible with the current configuration 
of the CH-47F Chinook. Boeing is conducting an evaluation of potential 
candidate seats. They are early in the evaluation process and have not 
yet presented their findings to the program office.
    Mrs. Roby. In regard to mission planning during the hearing we 
heard about what the military is doing to deal with Degraded Visual 
Environment (DVE). I would like to hear more about what the Army and 
other Services are doing to improve mission planning for Rotary Wing 
operation. I've been briefed by a constituent that is developing a tool 
that uses terrain and soil features, environmental forecasts, and 
aircraft performance attributes to provide qualitative assessments of 
landing zones and the operational environment. Since mission planning 
is the initial step to reducing risk, would having the capability to 
identify more favorable areas prior to actual execution that decrease 
the impact of a DVE prove beneficial? In the same context, would the 
capability to view the overall impacts of the environment on rotary 
performance with respect to power management (the leading cause of 
aircraft mishap) assist in the mission planning and decisionmaking 
process and create greater situational awareness prior to crews 
encountering these conditions?
    General Crosby. Currently, the Aviation Mission Planning System 
(AMPS) is utilized by almost every aviation platform as a mission 
planning and mission rehearsal tool prior to a flight. It uses maps and 
other geo-referenced imagery and databases correlated with Digital 
Terrain Elevation Data (DTED) data to depict terrain features and man-
made obstacles which optimize the planning process. AMPS software 
additionally takes into account aircraft type and performance 
attributes as well as forecasted environmental conditions to determine 
expected performance characteristics for the proposed mission. AMPS 
currently provides no tool that fuses all of this data together for the 
express purpose of qualitatively assessing a helicopter landing zone 
with respect to the potential for Degraded Visual Environment (DVE).
    While a qualitative assessment of a landing zone based on accurate 
and up-to-date data could be useful in determining if it is safe to 
land a rotary-wing aircraft, such an assessment performed in a mission-
planning function would not necessarily decrease the impact of the DVE 
problem due to two major issues: the age and accuracy of the data, and 
the accuracy of Global Positioning System (GPS) systems. First, the age 
of database terrain and environmental data may result in substantial 
errors when relied upon during DVE, due to the fact that the terrain 
itself may have changed, or buildings, vehicles, and other obstacles 
may be in the landing zone. These changes would not appear in a 
database that is not often updated. Additionally, the typical DTED 
error is plus or minus 3.5 meters (m). Second, the relation of the 
aircraft to the ground in a DVE is determined solely by GPS. The 
accuracy of current military GPS systems is approximately plus or minus 
6.5m. This could result in a total error of plus or minus 10m. While an 
error of 10m might not seem significant, it is considerable for an 
aircraft at low altitudes or transitioning to land. Mission planning 
represents a snap shot in time, and the available information at the 
time of planning may not represent the true nature of the landing 
environment for a number of reasons. Mission planning is critical in 
reducing risk, however, DVE is a real-time problem, and a pilot cannot 
be expected to rely solely on planning products during low-altitude 
operations in a DVE. The United States Army Program Executive Office 
Aviation Report and Recommendations on Terrain Awareness Aspects of 
Rotorcraft Mishaps in DVE speaks directly to these issues in section V 
paragraph C. on page 47.

    Mrs. Roby. In regard to mission planning during the hearing we 
heard about what the military is doing to deal with Degraded Visual 
Environment (DVE). I would like to hear more about what the Army and 
other Services are doing to improve mission planning for Rotary Wing 
operation. I've been briefed by a constituent that is developing a tool 
that uses terrain and soil features, environmental forecasts, and 
aircraft performance attributes to provide qualitative assessments of 
landing zones and the operational environment. Since mission planning 
is the initial step to reducing risk, would having the capability to 
identify more favorable areas prior to actual execution that decrease 
the impact of a DVE prove beneficial? In the same context, would the 
capability to view the overall impacts of the environment on rotary 
performance with respect to power management (the leading cause of 
aircraft mishap) assist in the mission planning and decisionmaking 
process and create greater situational awareness prior to crews 
encountering these conditions?
    General Kane. Due to the dynamic nature of rotary-wing operations, 
specifically time-sensitive Special Operations, Personnel Recovery and 
Nuclear Support missions, aircrews land at unsurveyed and unimproved 
landing zones where Degraded Visual Environment conditions may be 
encountered. To mitigate this risk, the Air Force is pursuing several 
Service and Joint efforts to improve the Degraded Visual Environment 
and survivability for our vertical lift aircraft. Air Force efforts are 
focused across the spectrum from pre-mission planning tools to 
aircraft-specific systems that enable dynamic terminal area operations 
to unplanned landing zones. For the HH-60G we are installing an 
improved altitude hold and hover system and moving maps with digital 
terrain and elevation data. Additionally, flight testing will start in 
FY 14 for a 3D-Landing Zone technology that will ``see-through'' dust 
during take-offs and landings. The CV-22 currently has a robust enroute 
Degraded Visual Environment capability that includes digital terrain 
maps, heads-up displays, forward looking infrared (FLIR), automatic 
flight control approach, hover system, and a terrain following radar. 
Both the HH-60G and CV-22 have on board integrated systems that allow 
aircrew members to compute real-time power management calculations that 
incorporate aircraft performance parameters prior to take-off and 
landing. These systems allow aircrew to reconfirm and or update pre-
mission data. For the UH-1N we are planning a commercial-off-the-shelf 
terrain warning system.
    A robust and thorough mission planning system, landing zone 
assessments and real-time mission management, coupled with Service and 
Joint collaboration, has significantly improved mission effectiveness 
and aircrew situational awareness.

    Mrs. Roby. In regard to mission planning during the hearing we 
heard about what the military is doing to deal with Degraded Visual 
Environment (DVE). I would like to hear more about what the Army and 
other Services are doing to improve mission planning for Rotary Wing 
operation. I've been briefed by a constituent that is developing a tool 
that uses terrain and soil features, environmental forecasts, and 
aircraft performance attributes to provide qualitative assessments of 
landing zones and the operational environment. Since mission planning 
is the initial step to reducing risk, would having the capability to 
identify more favorable areas prior to actual execution that decrease 
the impact of a DVE prove beneficial? In the same context, would the 
capability to view the overall impacts of the environment on rotary 
performance with respect to power management (the leading cause of 
aircraft mishap) assist in the mission planning and decisionmaking 
process and create greater situational awareness prior to crews 
encountering these conditions?
    General Jones. Due to the dynamic nature of rotary-wing operations, 
specifically time-sensitive Special Operations, Personnel Recovery and 
Nuclear Support missions, aircrews land at unsurveyed and unimproved 
landing zones where Degraded Visual Environment conditions may be 
encountered. To mitigate this risk, the Air Force is pursuing several 
Service and Joint efforts to improve the Degraded Visual Environment 
and survivability for our vertical lift aircraft. Air Force efforts are 
focused across the spectrum from pre-mission planning tools to 
aircraft-specific systems that enable dynamic terminal area operations 
to unplanned landing zones. For the HH-60G we are installing an 
improved altitude hold and hover system and moving maps with digital 
terrain and elevation data. Additionally, flight testing will start in 
FY 14 for a 3D-Landing Zone technology that will ``see-through'' dust 
during take-offs and landings. The CV-22 currently has a robust enroute 
Degraded Visual Environment capability that includes digital terrain 
maps, heads-up displays, forward looking infrared (FLIR), automatic 
flight control approach, hover system, and a terrain following radar. 
Both the HH-60G and CV-22 have on board integrated systems that allow 
aircrew members to compute real-time power management calculations that 
incorporate aircraft performance parameters prior to take-off and 
landing. These systems allow aircrew to reconfirm and or update pre-
mission data. For the UH-1N we are planning a commercial-off-the-shelf 
terrain warning system.
    A robust and thorough mission planning system, landing zone 
assessments and real-time mission management, coupled with Service and 
Joint collaboration, has significantly improved mission effectiveness 
and aircrew situational awareness.

                                  <all>

</pre></body></html>
